Follow-Up Review of Cost-Benefit
Analyses in Selected SEC Dodd-
Frank Act Rulemakings




                              January 27, 2012
                              Report No. 499
Follow-Up Review of Cost-Benefit Analyses       January 27, 2012
Report No. 499
                                            i
Should you have any questions regarding this report, please do not hesitate to
contact Noelle Maloney, Deputy Inspector General, at x-6035. We appreciate
the courtesy and cooperation that you and your staff extended to OIG.

Attachment

cc:     James R. Burns, Deputy Chief of Staff, Office of the Chairman
        Luis A. Aguilar, Commissioner
        Troy A. Paredes, Commissioner
        Elisse B. Walter, Commissioner
        Daniel Gallagher, Commissioner
        Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
        Paula Dubberly, Deputy Director, Policy and Capital Markets, Division of
          Corporation Finance
        Brian A. Bussey, Associate Director, Office of Derivatives Policy and
          Trading Practices, Division of Trading and Markets
        Heather Seidel, Associate Director, Office of Market Supervision, Division
          of Trading and Markets
        Robert E. Plaze, Deputy Director, Division of Investment Management
        Richard A. Levine, Associate General Counsel, Office of Associate
          General Counsel (Legal Policy) 2, Office of the General Counsel
        Bruce Kraus, Co-Chief Counsel, Office of Chief Counsel, Division
          of Risk, Strategy, and Financial Innovation




Follow-Up Review of Cost-Benefit Analyses                             January 27, 2012
Report No. 499
                                            ii
Follow-Up Review of Cost-Benefit Analyses
in Selected SEC Dodd-Frank Act
Rulemakings

                                Executive Summary
Background. The Dodd-Frank Wall Street Reform and Consumer Protection
Act (Dodd-Frank Act) was signed into law on July 21, 2010. 1 The law reformed
the financial regulatory system, including how financial regulatory agencies
operate. Among other things, the Dodd-Frank Act required the U.S. Securities
and Exchange Commission (SEC or Commission) to undertake a significant
number of studies and rulemakings, including regulatory initiatives addressing
derivatives; asset securitization; credit rating agencies; hedge funds, private
equity funds, and venture capital funds; municipal securities; clearing agencies;
and corporate governance and executive compensation. Although the Dodd-
Frank Act mandated specific rulemakings, it gave the SEC varying degrees of
discretion to determine the content of particular rules.

On May 4, 2011, the SEC Office of Inspector General (OIG) received a letter
from several members of the U.S. Senate Committee on Banking, Housing, and
Urban Affairs requesting that the Inspector General review the economic
analyses performed by the SEC in connection with six specific rulemaking
initiatives undertaken pursuant to the Dodd-Frank Act. 2

On June 13, 2011, we released a report on the results of our initial assessment
of the cost-benefit analyses conducted for these six rulemakings (referred to
hereafter as phase I). We concluded that the SEC had conducted a systematic
cost-benefit analysis for each of the six rules, but found that the level of
involvement of the Division of Risk, Strategy, and Financial Innovation (RiskFin)
varied considerably from rulemaking to rulemaking. In addition, the phase I
review found a lack of macro-level analysis and a lack of quantitative analysis on




1
  Pub. L. No. 111-203 (July 21, 2010).
2
  The six regulatory initiatives were Credit Risk Retention, 76 Fed. Reg. 24090 (proposed Mar. 31, 2011) (to
be codified at 17 C.F.R. pt 246); Clearing Agency Standards for Operation and Governance, 76 Fed. Reg.
14472 (proposed Mar. 3, 2011) (to be codified at 17 C.F.R. pt. 240); Registration and Regulation of Security-
Based Swap Execution Facilities, 76 Fed. Reg. 10948 (proposed Feb. 2, 2011) (to be codified at 17 C.F.R.
pts. 240, 242, and 249); Reporting by Investment Advisers to Private Funds and Certain Commodity Pool
Operators and Commodity Trading Advisors on Form PF, 76 Fed. Reg. 8068 (proposed Jan. 26, 2011) (to
be codified at 17 C.F.R. pts. 275 and 279); Registration of Municipal Advisors, 76 Fed. Reg. 824 (proposed
Dec. 20, 2010) (to be codified at 17 C.F.R. pts. 240 and 249); and Conflict Minerals, 75 Fed. Reg. 80948
(proposed Dec. 15, 2010) (to be codified at 17 C.F.R. pts. 229 and 249).
Follow-Up Review of Cost-Benefit Analyses                                                   January 27, 2012
Report No. 499
                                                     iii
the impact of the rules. In the report on phase I, we stated our intention to further
analyze these areas. 3

This follow-up, or phase II, analysis, examined the economic analyses performed
by the SEC in connection with the following five Dodd-Frank Act rulemakings:

    •   Shareholder Approval of Executive Compensation and Golden
        Parachute Compensation, 76 Fed. Reg. 6010 (Jan. 25, 2011) (to be
        codified at 17 C.F.R. pts. 229, 240, and 249)
    •   Disclosure for Asset-Backed Securities Required by Section 943 of
        the Dodd-Frank Wall Street Reform and Consumer Protection Act,
        76 Fed. Reg. 4489 (Jan. 20, 2011) (to be codified at 17 C.F.R. pts.
        229, 232, 240, and 249)
    •   Issuer Review of Assets in Offerings of Asset-Backed Securities, 76
        Fed. Reg. 4231 (Jan. 20, 2011) (to be codified at 17 C.F.R. pts. 229
        and 230)
    •   Reporting of Security-Based Swap Transaction Data, 75 Fed. Reg.
        64643 (interim final temporary rule, Oct. 13, 2010) (to be codified at
        17 C.F.R. pt. 240)
    •   Regulation SBSR—Reporting and Dissemination of Security-Based
        Swap Information, 75 Fed. Reg. 75208 (proposed Nov. 19, 2010)
        (to be codified at 17 C.F.R. pts. 240 and 242)4

For this report, as for our phase I report, we retained an expert, Albert S. Kyle, to
assist with our review of SEC cost-benefit analyses in Dodd-Frank Act
rulemakings. Professor Kyle is the Charles E. Smith Chair Professor of Finance
at the University of Maryland’s Robert H. Smith School of Business.

Objectives. The overall objectives of our review were to

    •   assess whether the SEC is performing cost-benefit analyses for
        rulemaking initiatives that are statutorily required under the Dodd-
        Frank Act in a consistent manner across SEC divisions and offices
        and in compliance with applicable federal requirements and

    •   determine whether problematic areas exist where rigorous cost-
        benefit analyses were not performed for rulemaking initiatives and
        where improvements are needed and best practices can be
        identified to enhance the overall methodology used to perform cost-
        benefit analyses.


3
  See Report of Review of Economic Analyses Conducted by the Securities and Exchange Commission in
Connection With Dodd-Frank Act Rulemakings (June 13, 2011); http://www.sec-
oig.gov/Reports/AuditsInspections/2011/Report_6_13_11.pdf.
4
  In phase II, we also examined and discuss, as appropriate, several of the Dodd-Frank Act rulemakings we
addressed in phase I.
Follow-Up Review of Cost-Benefit Analyses                                                 January 27, 2012
Report No. 499
                                                   iv
Results. Although the SEC is not subject to an express statutory requirement to
conduct cost-benefit analyses for its rulemakings, it is subject to statutory
requirements to consider factors such as the effects on competition and the
needs of small entities. 5 It generally must also provide the public with notice of
and opportunity to comment on its rulemakings. Moreover, SEC Chairmen
previously committed to Congress that the SEC would conduct cost-benefit or
economic analyses in connection with its rulemaking activities, and it has
consistently performed such analyses in its rulemakings. According to senior
SEC management, the SEC shares the goals of and adheres to many of the
requirements of executive orders that call for executive agencies to perform cost-
benefit analyses for rulemakings, and SEC staff use internal compliance
guidance that provides a detailed overview and an extensive list of best practices
for use by SEC rulemaking divisions and offices in preparing cost-benefit
analyses.

In the course of our review, we learned that when questions arose in 2010 about
the extent to which cost-benefit analyses should be conducted for Dodd-Frank
Act rulemakings, rulemaking teams and RiskFin consulted with the then–SEC
General Counsel. On September 27, 2010, following these consultations, the
former General Counsel, in a memorandum to rulemaking teams and RiskFin,
provided his views on a framework for approaching economic analyses for Dodd-
Frank Act rulemakings. The memorandum advised the following approach with
respect to which rulemakings or portions of rulemakings should discuss and
quantify costs and benefits:

        Where the Commission has a degree of discretion, the release
        should identify the discretion the Commission is exercising, the
        choices being made, and the rationale for those choices. To the
        extent that the Commission is exercising discretion, the release
        should discuss the costs and benefits of the choices proposed or
        adopted, including where possible, a quantification of the costs and
        benefits. With respect to those choices made by Congress, the
        release generally should cite to the legislative record to support and
        explain the benefits Congress intended by enacting the provision,
        but only as a matter of citation and not as a matter of assertion by
        the Commission.

        Where the Commission has no discretion, the release should say
        so. Because the Commission is making no policy choices, there
        are no choices to analyze or explain. 6



5
  See 15 U.S.C § 77b(b), 15 U.S.C. § 78c(f), 15 U.S.C. § 80a(2), 15 U.S.C. § 80b-2(c), 15 U.S.C. §
78w(a)(2), 5 U.S.C. §§ 603(a), 604(a), 605(b).
6
  Memorandum from David M. Becker, General Counsel, Thoughts About Best Practices in Drafting
Economic Analysis Sections of Releases for Dodd-Frank Related Rulemakings (Privileged and Confidential)
(Sept. 27, 2010).
Follow-Up Review of Cost-Benefit Analyses                                                  January 27, 2012
Report No. 499
                                                    v
Based upon our review of the specific cost-benefit analyses performed for
the rulemakings selected, we identified several significant issues. We did
find overall that SEC rulemaking teams consistently adhered to internal
policies for preparing cost-benefit analyses and, as a result, the cost-
benefit analyses followed a systematic process from inception to
completion. Nonetheless, we found that the extent of quantitative
discussion of cost-benefit analyses varied among rulemakings and that
none of the rulemakings examined in our phase II review attempted to
quantify either benefits or costs other than information collection costs as
required by the Paperwork Reduction Act. In addition, our expert,
Professor Kyle, opined on the crucial role that economists play in ensuring
that cost-benefit analyses incorporate both qualitative and quantitative
information.

Significantly, we also found that in its cost-benefit analyses for Dodd-Frank Act
rulemakings, the SEC generally focused on discretionary components—portions
of rulemakings in which the Commission is able to exercise choice. Professor
Kyle opined that in addition to satisfying statutory requirements, a cost-benefit
analysis is intended to inform the public and other parts of government, including
Congress, of the effects of alternative regulatory actions. While the September
2010 memorandum from the former General Counsel took the view that where
the SEC has no discretion, there are no choices to explain, OMB Circular A-4,
which provides guidance to executive agencies on conducting cost-benefit
analyses required by Executive Order 12866, specifies that the baseline
agencies should establish for use in defining the costs and benefits of an
alternative “normally will be a ‘no action’ baseline.” Therefore, to the extent that
the SEC performs cost-benefit analyses only for discretionary rulemaking
activities, in the opinion of Professor Kyle, the SEC may not be fulfilling the
essential purposes of such analyses—providing a full picture of whether the
benefits of a regulatory action are likely to justify its costs and discovering which
regulatory alternatives would be the most cost-effective.

In addition, based on our examination of several Dodd-Frank Act rulemakings,
the review found that the SEC sometimes used multiple baselines in its cost-
benefit analyses that were ambiguous or internally inconsistent. For example, in
the SEC’s interim final temporary rule for registration of municipal advisors,
portions of the cost-benefit analysis assumed as a baseline a minimal registration
process that would allow municipal advisors to continue their usual activities with
limited disruption. However, other parts of the cost-benefit analysis assumed
that municipal advisers would be required to cease their advisory activities in the
absence of a registration process, resulting in a shutdown of the municipal
advisory market. Our review also found that there was often considerable
overlap between the cost-benefit analyses and efficiency, competition, and
capital formation sections of the releases for Dodd-Frank Act regulations, and
that redundancy could be reduced by combining these two sections.


Follow-Up Review of Cost-Benefit Analyses                               January 27, 2012
Report No. 499
                                            vi
Further, we found that some SEC Dodd-Frank Act rulemakings lacked clear,
explicit explanations of the justification for regulatory action. Specifically, some
of the rulemakings that were premised on market failure alluded to market failure
but did not explicitly cite it as a justification or fully discuss it. Other rulemakings
included language that erroneously suggested a market failure justification and
contained no compelling alternative rationale in support of the action. OMB
Circular A-4 identifies market failure as one of several possible justifications for
federal agency regulation. In discussing this point, the circular provides that an
agency must demonstrate that proposed action is necessary before
recommending regulatory action, citing Executive Order 12866’s requirement that
agencies “promulgate only such regulations as are required by law, are
necessary to interpret the law, or are made necessary by compelling need, such
as material failures of private markets to protect or improve the health and safety
of the public, the environment, or the well being of the American people.”7
According to Professor Kyle, a more focused discussion of market failure in cost-
benefit analyses would lay out the rationale for regulation more clearly to
Congress, the general public, and the SEC itself.

Finally, the review found that although some of the SEC’s Dodd-Frank Act
rulemakings may result in significant costs or benefits to the Commission itself,
internal costs and benefits were rarely addressed in the cost-benefit analyses.
According to Professor Kyle, considering internal administrative costs and
benefits is consistent with the purposes of a cost-benefit analysis, however, and
provides a more complete picture of economic costs and benefits associated with
government regulation.

Summary of Recommendations. Based on the results of our review, we are
making the following recommendations:

    1. SEC rulewriting divisions and RiskFin should consider ways for
       economists to provide additional input into cost-benefit analyses of
       SEC rulemakings to assist in including both quantitative and
       qualitative information to the extent possible.

    2. The Office of the General Counsel, in consultation with RiskFin,
       should reconsider its guidance that the SEC should perform
       economic analyses for rulemaking activities to the extent that the
       SEC exercises discretion and should consider whether a pre-
       statute baseline should be used whenever possible.

    3. SEC rulemaking teams should generally use a single, consistent
       baseline in the cost-benefit analyses of their rulemakings related to
       a particular topic. The baseline being used should be specified at
       the beginning of the cost-benefit analysis section. If multiple
       baselines are appropriate, such as for evaluating alternative
7
 See OMB Circular A-4, Regulatory Analysis (Sept. 17, 2003), at 3-4.
Follow-Up Review of Cost-Benefit Analyses                                January 27, 2012
Report No. 499
                                                   vii
        approaches or explaining the SEC’s use of discretion, they should
        also be explained and justified.

    4. SEC rulewriting divisions should consider discontinuing the practice
       of drafting separate cost-benefit analysis and efficiency,
       competition, and capital formation sections and instead provide a
       more integrated discussion of these issues in rule releases.

    5. The Commission should consider directing rulemaking teams to
       (a) explicitly discuss market failure as a justification for regulatory
       action in the cost-benefit analysis of each rule that is based in
       whole or in part on perceived market failure or (b) in the absence of
       market failure, demonstrate a compelling social purpose that
       justifies regulatory action.

    6. SEC rulemaking teams should consider including internal costs and
       benefits in the cost-benefit analyses of rulemakings.




Follow-Up Review of Cost-Benefit Analyses                              January 27, 2012
Report No. 499
                                            viii
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii
Table of Contents ........................................................................................................ ix

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives ........................................................................................................ 10

Findings and Recommendations
     Finding 1: The SEC Takes a Systematic Approach to Performing Cost-
     Benefit Analyses .............................................................................................. 12
                  Recommendation 1..................................................................... 15

         Finding 2: The SEC’s Focus on Discretionary Rulemaking Activities May
         Not Always Serve the Broadest Purposes of Cost-Benefit Analyses ............... 16
                      Recommendation 2..................................................................... 23

         Finding 3: The SEC Has Sometimes Used Multiple Baselines in Its Cost-
         Benefit Analyses for Dodd-Frank Act Rulemakings in an Inconsistent or
         Ambiguous Manner .......................................................................................... 23
                      Recommendation 3..................................................................... 29

         Finding 4: Some Dodd-Frank Act Rulemakings Combine Their Cost-
         Benefit Analysis and ECCF Sections, and This Approach Reduces
         Redundancy ..................................................................................................... 29
                      Recommendation 4..................................................................... 31

         Finding 5: Dodd-Frank Act Rulemakings Lack Adequate Discussion of
         Market Failure or Other Justification for Regulation ......................................... 31
                      Recommendation 5..................................................................... 36

    Finding 6: The SEC Rarely Addresses Internal Administrative Costs or
    Savings in the Cost-Benefit Analyses of Its Dodd-Frank Act Rulemakings ...... 37
                  Recommendation 6..................................................................... 40
Appendices
    Appendix I: Abbreviations................................................................................ 41
    Appendix II: Scope and Methodology............................................................... 42
    Appendix III: Criteria ......................................................................................... 44
    Appendix IV List of Recommendations ............................................................ 46
    Appendix V: Congressional Request ................................................................ 48
    Appendix VI: Management Comments............................................................. 53
    Appendix VII: OIG Response to Management Comments ............................... 61



Follow-Up Review of Cost-Benefit Analyses                                                         January 27, 2012
Report No. 499
                                                         ix
                     Background and Objectives

Background
On May 4, 2011, the U.S. Securities and Exchange Commission (SEC or
Commission) Office of Inspector General (OIG) received a letter from several
members of the U.S. Senate Committee on Banking, Housing, and Urban Affairs
(Senate Banking Committee) requesting that the Inspector General review the
economic analyses performed by the SEC in connection with rulemaking
initiatives undertaken pursuant to the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act). 8 The letter stated that on February
15, 2011, the same Senate Banking Committee members had sent a letter to the
SEC, Commodity Futures Trading Commission (CFTC), Board of Governors of
the Federal Reserve System (Federal Reserve), Federal Deposit Insurance
Corporation, and Office of the Comptroller of the Currency, in response to
concerns raised by Commissioners at both CFTC and the SEC about economic
analyses at their agencies.

The May 4, 2011, letter further stated that a CFTC OIG report released on April
15, 2011, raised issues that confirmed the concerns regarding the CFTC
rulemaking expressed in the committee’s February 15, 2011, letter. As a result,
the May 4, 2011, letter asked that the SEC OIG, along with the CFTC, Federal
Deposit Insurance Corporation, Federal Reserve, and Department of the
Treasury OIGs, conduct reviews of the economic analyses being performed for
rulemakings required under the Dodd-Frank Act. The letter asked that the SEC
OIG’s review focus on the cost-benefit analyses prepared by the SEC for six
specific Dodd-Frank Act regulatory initiatives. 9

On June 13, 2011, we released a report on the results of our initial assessment
of the cost-benefit analyses conducted for these six rulemakings (referred to
hereafter as phase I). We concluded that the SEC had conducted a systematic
cost-benefit analysis for each of the six rules, but found that the level of
involvement of the Division of Risk, Strategy, and Financial Innovation (RiskFin),
whose responsibilities include providing economic analyses of proposed
Commission actions, varied considerably from rulemaking to rulemaking. In
addition, the phase I review found two areas of potential deficiency in the cost-

8
  Pub. L. No. 111-203 (July 21, 2010).
9
  The six regulatory initiatives were Credit Risk Retention, 76 Fed. Reg. 24090 (proposed Mar. 31, 2011) (to
be codified at 17 C.F.R. pt 246); Clearing Agency Standards for Operation and Governance, 76 Fed. Reg.
14472 (proposed Mar. 3, 2011) (to be codified at 17 C.F.R. pt. 240); Registration and Regulation of Security-
Based Swap Execution Facilities, 76 Fed. Reg. 10948 (proposed Feb. 2, 2011) (to be codified at 17 C.F.R.
pts. 240, 242, and 249); Reporting by Investment Advisers to Private Funds and Certain Commodity Pool
Operators and Commodity Trading Advisors on Form PF, 76 Fed. Reg. 8068 (proposed Jan. 26, 2011) (to
be codified at 17 C.F.R. pts. 275 and 279); Registration of Municipal Advisors, 76 Fed. Reg. 824 (proposed
Dec. 20, 2010) (to be codified at 17 C.F.R. pts. 240 and 249); and Conflict Minerals, 75 Fed. Reg. 80948
(proposed Dec. 15, 2010) (to be codified at 17 C.F.R. pts. 229 and 249).
Follow-Up Review of Cost-Benefit Analyses                                                January 27, 2012
Report No. 499
                                                 Page 1
benefit analyses—a lack of macro-level analysis and a lack of quantitative
analysis on the impact of the rules. In the report, we stated our intention to
further analyze these areas, as well as RiskFin’s collaboration on and
involvement with the economic analyses for rulemakings. 10 This report presents
the results of our follow-up analysis.

For our phase I report and this phase II follow-up report, we retained an expert,
Albert S. Kyle, to assist with our review of SEC cost-benefit analyses in Dodd-
Frank Act rulemakings. Professor Kyle is the Charles E. Smith Chair Professor
of Finance at the University of Maryland’s Robert H. Smith School of Business.
He is an expert on many aspects of capital markets and has conducted
significant research on such topics as informed speculative trading, market
manipulation, price volatility, and the information content of market prices, market
liquidity, and contagion. He has also worked as a consultant on finance topics
for several government agencies in addition to the Commission, including the
Department of Justice, the Internal Revenue Service, the Federal Reserve, and
CFTC.

Dodd-Frank Act
The Dodd-Frank Act was signed into law on July 21, 2010. The law reformed the
financial regulatory system, including how financial regulatory agencies such as
the SEC operate. Among other things, the Dodd-Frank Act

     •   gave the SEC regulatory authority over advisers to hedge funds;
     •   authorized the SEC, together with CFTC, to regulate over-the-
         counter derivatives;
     •   provided the SEC with additional authority and responsibilities for
         oversight of credit rating agencies;
     •   imposed greater disclosure and risk retention requirements with
         respect to the issuance of asset-backed securities;
     •   strengthened the SEC’s authority with respect to corporate
         governance; and
     •   required the SEC to study a uniform fiduciary duty for investment
         advisers and broker-dealers.

The Dodd-Frank Act required the SEC to undertake a significant number of
studies and rulemakings, including regulatory initiatives addressing derivatives;
asset securitization; credit rating agencies; hedge funds, private equity funds,
and venture capital funds; municipal securities; clearing agencies; and corporate
governance and executive compensation. The act imposed deadlines for
numerous rulemakings. Although the Dodd-Frank Act mandated specific


10
  See Report of Review of Economic Analyses Conducted by the Securities and Exchange Commission in
Connection With Dodd-Frank Act Rulemakings (June 13, 2011); http://www.sec-
oig.gov/Reports/AuditsInspections/2011/Report_6_13_11.pdf.
Follow-Up Review of Cost-Benefit Analyses                                        January 27, 2012
Report No. 499
                                             Page 2
rulemakings, it gave the SEC varying degrees of discretion to determine the
content of particular rules.

Statutes, Orders, Guidance, and Policy Related to
Performance of Cost-Benefit or Economic Analyses
Although the SEC is not subject to an express statutory requirement to conduct
cost-benefit analyses for its rulemakings, it is subject to statutory requirements to
consider factors such as the effects on competition and the needs of small
entities. 11 It generally must also provide the public with notice of and opportunity
to comment on its rulemakings. In addition, according to senior SEC
management, the SEC shares the goals of and adheres to many of the
requirements of executive orders that call for executive agencies to perform cost-
benefit analyses for rulemakings even though, as an independent agency, the
SEC is not bound by these executive orders.

Statutes. The National Securities Markets Improvement Act of 1996 (NSMIA)
amended the Securities Act of 1933 (Securities Act), the Securities Exchange Act
of 1934 (Exchange Act), and the Investment Company Act of 1940 to provide
that whenever the Commission is engaged in rulemaking and is required to
consider or determine whether an action is necessary or appropriate in the public
interest, “the Commission shall also consider, in addition to the protection of
investors, whether the action will promote efficiency, competition, and capital
formation.” The Gramm-Leach-Bliley Act of 1999 amended the Investment
Advisers Act of 1940 to include the same requirement to consider efficiency,
competition, and capital formation. 12 In addition, Section 23(a)(2) of the
Exchange Act requires the Commission to consider the effect on competition of
any rule promulgated under the act, stating that a rule shall not be adopted if it
would impose a burden on competition that is not necessary or appropriate in
furtherance of the purposes of the act. 13

The Administrative Procedure Act of 1946 (APA) established a notice-and-
comment rulemaking process which requires agencies to publish proposed
rulemakings in the Federal Register, provide opportunity for interested persons to
submit written comments, and give a concise general statement of the basis and
purpose of the final rule. 14 Under the APA, the courts can, among other things,
set aside a rule found to be “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with the law.” 15




11
   See 15 U.S.C § 77b(b), 15 U.S.C. § 78c(f), 15 U.S.C. § 80a(2), 15 U.S.C. § 80b-2(c), 15 U.S.C. §
78w(a)(2), 5 U.S.C. §§ 603(a), 604(a), 605(b).
12
   15 U.S.C. § 77b(b), 15 U.S.C. § 78c(f), 15 U.S.C. § 80a(2), 15 U.S.C. § 80b-2(c).
13
   15 U.S.C. § 78w(a)(2).
14
   5 U.S.C. § 553(b)-(c).
15
   5 U.S.C. § 706(2)(A).
Follow-Up Review of Cost-Benefit Analyses                                               January 27, 2012
Report No. 499
                                                 Page 3
The Paperwork Reduction Act (PRA) and the Regulatory Flexibility Act set forth
specific requirements applicable to the rulemaking process. The PRA requires
agencies to solicit and review public comments on the “collection of information”
requirements of proposed rules. 16 The PRA also requires, among other things,
that agencies evaluate the need for the collection of information and provide a
“specific, objectively supported estimate of burden.” 17 The Regulatory Flexibility
Act requires agencies to consider the needs of small entities in evaluating
proposed and final rules for all rules subject to notice and comment under the
APA and to describe the impact of proposed and final rules on small entities,
unless the agency head “certifies that the rule will not, if promulgated, have a
significant economic impact on a substantial number of small entities.” 18

Executive Orders and OMB Guidance. Executive Order 12866, Regulatory
Planning and Review (EO 12866), 19 Executive Order 13563, Improving
Regulation and Regulatory Review (EO 13563), 20 and Office of Management and
Budget (OMB) Circular A-4, Regulatory Analysis (OMB Circular A-4), 21 discuss
requirements and regulatory principles, including cost-benefit analyses of
proposed rules and regulations.

EO 12866, which was issued by President Clinton on September 30, 1993, was
designed to ensure a regulatory system that, among other things, “improves the
performance of the economy without imposing unacceptable or unreasonable
costs on society.” EO 12866 contains 12 “Principles of Regulation,” which call for
executive agencies, to the extent permitted by law and where applicable, to

        •   identify the problem to be addressed and assess its
            significance;
        •   examine whether existing regulations (or other law) have
            created or contributed to the problem a new regulation is
            intended to correct and should be modified to achieve the
            intended goal of regulation more effectively;
        •   identify and assess available alternatives to direct regulation;
        •   in setting regulatory priorities, consider, to the extent
            reasonable, the degree and nature of risks posed by substances
            or activities under their jurisdiction;
        •   design regulations in the most cost-effective manner to achieve
            the regulatory objective;
        •   assess both the costs and benefits of the intended regulation,
            and propose or adopt a regulation only upon a reasoned
            determination that the benefits justify its costs;

16
   44 U.S.C. §§ 3506(c)(2)(A), 3507(a)(1).
17
   44 U.S.C. § 3506(c)(1)(A)(i) and (iv).
18
   5 U.S.C. §§ 603(a), 604(a), 605(b).
19
   Exec. Order No. 12866, Regulatory Planning and Review, 58 Fed. Reg. 51735 (Sept. 30, 1993).
20
   Exec. Order No. 13563, Improving Regulation and Regulatory Review, 76 Fed. Reg. 3821 (Jan. 18, 2011).
21
   OMB Circular A-4, Regulatory Analysis (Sept. 17, 2003).
Follow-Up Review of Cost-Benefit Analyses                                            January 27, 2012
Report No. 499
                                               Page 4
        •   base decisions on the best reasonably obtainable information
            concerning the need for, and consequences of, the intended
            regulation;
        •   identify and assess alternative forms of regulation and, to the
            extent feasible, specify performance objectives;
        •   wherever feasible, obtain input from appropriate state, local, and
            tribal officials before imposing regulatory requirements that
            might significantly or uniquely affect those entities;
        •   avoid inconsistent, incompatible, or duplicative regulations;
        •   tailor regulations to impose the least burden on society,
            consistent with obtaining the regulatory objectives; and
        •   draft regulations in simple and easy-to-understand language. 22

EO 12866 also requires that OMB review agency rulemakings to ensure that
these principles are followed and that one agency’s decisions do not conflict with
the policies or actions of another agency. 23

OMB Circular A-4 provides guidance to executive agencies on conducting cost-
benefit analyses required by EO 12866. It specifies that to properly evaluate the
benefits and costs of regulations and their alternatives, agencies should do the
following:

            •    Explain how the actions required by the rule are linked to the
                 expected benefits. For example, indicate how additional
                 safety equipment will reduce safety risks. A similar analysis
                 should be done for each of the alternatives.
            •    Identify a baseline. Benefits and costs are defined in
                 comparison with a clearly stated alternative. This normally
                 will be a “no action” baseline: what the world will be like if
                 the proposed rule is not adopted. Comparisons to a “next
                 best” alternative are also especially useful.
            •    Identify the expected undesirable side-effects and ancillary
                 benefits of the proposed regulatory action and the
                 alternatives. These should be added to the direct benefits
                 and costs as appropriate. 24

EO 13563, which was issued by President Obama on January 18, 2011,
supplements and reaffirms the principles and structures of review established in
EO 12866.

SEC Policy and Guidance. EO 12866 and EO 13563 apply to agencies as
defined in 44 U.S.C. § 3502(1) with the exception of independent regulatory
agencies, which are listed at 44 U.S.C. § 3502(5). The SEC is an independent
22
   Exec. Order No. 12866 at 51735-36.
23
   Id. at 51737.
24
   OMB Circular A-4 at 2-3.
Follow-Up Review of Cost-Benefit Analyses                              January 27, 2012
Report No. 499
                                            Page 5
regulatory agency and, as such, is not bound by EO 12866 or EO 13563.
Nevertheless, SEC Chairmen have made a commitment to Congress that the
SEC will conduct cost-benefit or economic analyses in connection with its
rulemaking activities. Specifically, according to Office of the General Counsel
(OGC) officials, former SEC Chairman Arthur Levitt stated that there was an
expectation that the SEC would perform cost-benefit analyses as part of the
rulemaking process. 25 In fact, the Commission’s current rulemaking procedures
are closely aligned with the requirements of EO 12866, EO 13563, and OMB
Circular A-4, as indicated by the following statement on the SEC’s website:

         While [EO 13563] does not apply to independent agencies like the
         Commission, we share its goals, and many of our existing practices
         are consistent with those described in the Order. For example, we
         take into account benefits and costs in our rulemakings, assess
         alternative regulatory approaches, afford the public a meaningful
         opportunity to comment on our proposed regulations through the
         Internet, and coordinate our rulemakings with other agencies to
         harmonize regulations. 26

Further, during a March 15, 2011, hearing before the House Appropriations
Committee’s Subcommittee on Financial Services and General Government,
SEC Chairman Mary Schapiro stated that while EO 13563 does not apply to
independent agencies, the SEC does much of what it requires, including
conducting cost-benefit analyses and trying to make accommodations for smaller
businesses. 27 She further stated that the SEC planned to form a small Business
Advisory Committee and review rules that have been on the books for a long
time to determine whether the SEC can provide relief to small businesses. 28
The SEC Compliance Handbook, prepared by OGC and last revised on October
1, 1999, includes the following points in its overview of cost-benefit analysis for
SEC rulemakings:




25
   Interview with members of SEC OGC on May 17, 2011.
26
   SEC, Improving Regulations: Reviewing Regulatory Requirements to Ensure They Continue to Promote
Economic Growth, Innovation, Competitiveness & Job Creation,
http://www.sec.gov/spotlight/regulatoryreviewcomments.shtml.
27
   Budget Hearing—Securities and Exchange Commission: Hearing Before the Fin. Serv. and Gen. Gov’t
                                                       th
Subcommittee of the H. Comm. on Appropriations, 112 Cong. (Mar. 15, 2011) (testimony of SEC Chairman
Mary Schapiro), Federal News Service, Inc. transcript at 26-27.
28
   Budget Hearing—Securities and Exchange Commission: Hearing Before the Fin. Serv. and Gen. Gov’t
                                                       th
Subcommittee of the H. Comm. on Appropriations, 112 Cong. (Mar. 15, 2011) (testimony of SEC Chairman
Mary Schapiro), Federal News Service, Inc. transcript at 27. Further, in a March 2011, speech,
Commissioner Troy Paredes commented on the importance of cost-benefit analysis: “[T]he Commission
must engage in rigorous cost-benefit analysis when fashioning the securities law regime. A demanding
cost-benefit analysis that permits us to make informed tradeoffs across a range of potential outcomes is the
best way of achieving the common good, of ensuring that the benefits of regulation outweigh the costs.”
                                                            th
Troy Paredes, Commissioner, SEC, Remarks Before the 27 Annual NABE Economic Policy Conference
(Mar. 8, 2011), http://www.sec.gov/news/speech/2011/spch030811tap.htm, at 4 (footnote omitted).
Follow-Up Review of Cost-Benefit Analyses                                               January 27, 2012
Report No. 499
                                                 Page 6
      •   The proposing release should identify possible direct and indirect
          costs and benefits for members of the industry, relevant market
          segments, and types of investors and issuers. It should also
          discuss any available data and solicit comments and additional
          data.

      •   The adopting release should include a substantive, qualitative
          discussion of the costs and benefits and the staff’s final quantitative
          analysis of any available data. A strong cost-benefit section should
          include both quantitative and qualitative analysis.

      •   A cost-benefit analysis should address both micro, or compliance,
          costs, and macro costs, such as distributional effects or changes in
          investment or order flows.

      •   RiskFin must concur in any numbers used in the cost-benefit
          analysis, and all numbers should be verified.

      •   The rulemaking divisions are primarily responsible for generating
          quantitative and qualitative information that forms the basis of a
          cost-benefit analysis. RiskFin may be able to provide data and
          analysis if it is consulted early in the process. 29

The Compliance Handbook also includes the following best practices,
among others, for use by SEC rulemaking divisions and offices in
preparing cost-benefit analyses:

          •   At the proposing stage, the cost-benefit analysis should be
              tentative and should not reach any conclusions. As comments
              are received, the cost-benefit analysis should be refined.

          •   Rulemaking teams should schedule meetings with OGC and
              RiskFin early in the comment period to establish a workplan for
              gathering data and identifying possible costs and benefits.

          •   Some qualitative analysis may be included in the proposing
              release, but no “preliminary beliefs” or “preliminary conclusions”
              should be included.

          •   The proposing release should include quantitative data only if
              the data have been verified in some way or were derived from
              an independent source.



29
     See Compliance Handbook at 38-39.
Follow-Up Review of Cost-Benefit Analyses                                January 27, 2012
Report No. 499
                                            Page 7
       •   The proposing release should include a request for comments
           soliciting data and views on costs and benefits.

       •   The proposing release should not present PRA numbers and
           estimates as Commission estimates unless they have been
           verified.

       •   Estimated compliance costs included in the adopting release
           must be verified (e.g., by surveying up to nine members of the
           affected industry segment).

       •   A complete cost-benefit analysis should consider macro costs,
           such as anticipated changes in market behavior, as well as
           micro costs, such as paperwork burdens.

       •   A cost-benefit analysis should consider both direct costs, such
           as costs incurred by a market participant subject to a rule, and
           indirect costs, such as costs incurred by customers or clients of
           the market participant.

       •   The benefits of a rule generally will track the purposes of the
           statutory provision under which the SEC promulgates the rule
           (e.g., the protection of investors). Benefits may also include
           promoting competition, efficiency, or capital formation. The
           release for a rule should explain how and why, in particular, the
           requirements of the rule will result in identified benefits.

       •   In many cases, it will not be possible to quantify the benefits of a
           rule. In such cases, a detailed qualitative assessment of the
           anticipated benefits will be necessary.

       •   The benefits and costs of a proposed rule should be measured
           against a baseline—the best assessment of the way the world
           would look absent the proposed regulation (the “as is”
           environment).

       •   It is preferable to monetize costs and benefits when verifiable
           estimates are available. However, effects that cannot be fully
           monetized or quantified should be described.

       •   If a regulation includes a number of distinct provisions, the
           benefits and costs of the different provisions should be
           evaluated.

       •   All compliance costs should be verified. If a survey is used to
           gather industry data on compliance costs, OGC and RiskFin
Follow-Up Review of Cost-Benefit Analyses                             January 27, 2012
Report No. 499
                                            Page 8
              should be involved in formulating the survey, and both RiskFin
              and the rulemaking division should retain the data retrieved for
              use in future rulemakings.

          •   There is no requirement that the SEC weigh the costs against
              the benefits, or conclude that the benefits outweigh the costs.
              An adopting release may state that the SEC’s view is that the
              likely benefits justify the costs.

          •   The adopting release should include a cost-benefit analysis that
              goes beyond the cost-benefit analysis in the proposing release
              and further analyzes in some detail the costs and benefits
              identified. The adopting release should also summarize and
              respond to any comments relating to costs or benefits,
              regardless of whether a comment was expressly directed to the
              cost-benefit section of the proposing release.

          •   Backup documentation should be prepared and retained to
              support the SEC’s cost-benefit analysis. The backup
              documentation includes any data or studies relied upon in the
              cost-benefit analysis. It also includes internal memoranda that
              memorialize conversations with, or information received from,
              outside persons about anticipated compliance costs or benefits.

          •   RiskFin must concur with the substance of the cost-benefit
              analysis, as well as any data or numbers included in the final
              analysis.

          •   OGC provides advice on the sufficiency and appropriate form of
              a cost-benefit analysis. 30

As discussed earlier, the SEC, an independent regulatory agency, is not
expressly required to conduct cost-benefit analyses for its rulemakings, but there
is an expectation that it will do so. 31 When questions arose in 2010 about the
extent to which cost-benefit analyses should be conducted for Dodd-Frank Act
rulemakings, rulemaking teams and RiskFin consulted with the then–SEC
General Counsel. On September 27, 2010, following these consultations, the
former General Counsel provided a memorandum to rulemaking teams and
RiskFin entitled “Thoughts About Best Practices in Drafting Economic Analysis
Sections of Releases for Dodd-Frank Related Rulemakings.” The memorandum
provided his views on a framework for approaching economic analyses for Dodd-
Frank Act rulemakings:



30
     Compliance Handbook at 37-47.
31
     See Compliance Handbook at 37.
Follow-Up Review of Cost-Benefit Analyses                               January 27, 2012
Report No. 499
                                            Page 9
         The Commission engages in economic analyses to inform its
         exercise of discretion in crafting rulemaking. The Commission sets
         forth its analyses in releases to explain its rationale for the choices
         it proposes or adopts in light of the discretion it is exercising. The
         first task, therefore, in drafting the economic analysis sections of a
         release is to identify the extent to which the Commission is
         exercising discretion. That Congress intended the Commission to
         engage in rulemaking does not necessarily mean the Commission
         has no discretion with respect to the content of the rule. We need
         to be candid with ourselves and the public on this point.

         Where the Commission has a degree of discretion, the release
         should identify the discretion the Commission is exercising, the
         choices being made, and the rationale for those choices. To the
         extent that the Commission is exercising discretion, the release
         should discuss the costs and benefits of the choices proposed or
         adopted, including where possible, a quantification of the costs and
         benefits. With respect to those choices made by Congress, the
         release generally should cite to the legislative record to support and
         explain the benefits Congress intended by enacting the provision,
         but only as a matter of citation and not as a matter of assertion by
         the Commission.

         Where the Commission has no discretion, the release should say
         so. Because the Commission is making no policy choices, there
         are no choices to analyze or explain.

         Applying these principles takes good faith, judgment, and wisdom.
         In some instances reasonable persons may differ, and in all
         instances we are happy to discuss any differences of opinion. 32

Objectives
The overall objectives of our review were to

     •   assess whether the SEC is performing cost-benefit analyses for
         rulemaking initiatives that are statutorily required under the Dodd-Frank

32
  Memorandum from David M. Becker, General Counsel, Thoughts About Best Practices in Drafting
Economic Analysis Sections of Releases for Dodd-Frank Related Rulemakings (Privileged and Confidential)
(Sept. 27, 2010). In a May 2011 speech, then–SEC Commissioner Kathleen Casey disagreed with this
approach: “By limiting our cost-benefit analysis to those measures over which the Commission has full
discretion, we fail to consider all the costs and benefits that will result from a particular regulatory action,
whether or not that action was undertaken at the direct command of Congress, or through the exercise of
our own judgment. . . . This is not to say that we should adopt an approach to cost-benefit analysis that is
inappropriately rigid in the opposite direction.” Kathleen Casey, Commissioner, SEC, Proposed Rules for
Nationally Recognized Statistical Rating Organizations, SEC Open Meeting (May 18, 2011), at 2-3
(emphasis in original), http://www.sec.gov/news/speech/2011/spch051811klc.htm.
Follow-Up Review of Cost-Benefit Analyses                                                   January 27, 2012
Report No. 499
                                                  Page 10
       Act in a consistent manner across SEC divisions and offices and in
       compliance with applicable federal requirements and

   •   determine whether problematic areas exist where rigorous cost-benefit
       analyses were not performed for rulemaking initiatives and where
       improvements are needed and best practices can be identified to enhance
       the overall methodology used to perform cost-benefit analyses.




Follow-Up Review of Cost-Benefit Analyses                         January 27, 2012
Report No. 499
                                            Page 11
               Findings and Recommendations

Finding 1: The SEC Takes a Systematic
Approach to Performing Cost-Benefit
Analyses
         SEC rulemaking teams consistently adhere to internal
         policies for preparing cost-benefit analyses. As a result, the
         cost-benefit analyses follow a systematic process from
         inception to completion.

NSMIA provides that the SEC shall consider whether an action will promote
efficiency, competition, and capital formation (ECCF) whenever the Commission
“is engaged in rulemaking and is required to consider or determine whether an
action is necessary or appropriate in the public interest.”33 Additionally, Section
23(a)(2) of the Exchange Act requires the Commission to consider the impact
that any rule promulgated under the act would have on competition. 34 This
provision states that a rule shall not be adopted if it would impose a burden on
competition that is not necessary or appropriate in furtherance of the purposes of
the act. 35 Moreover, although the SEC, an independent regulatory agency, is not
expressly required to conduct cost-benefit analyses, SEC Chairmen have made
a commitment to Congress that the Commission will conduct cost-benefit or
economic analyses for its rulemakings.

For our phase II review, we selected five Dodd-Frank Act rulemaking initiatives to
determine whether the SEC consistently and systematically prepared a cost-
benefit analysis for each rulemaking. We examined the following five
rulemakings:

     •   Shareholder Approval of Executive Compensation and Golden
         Parachute Compensation, 76 Fed. Reg. 6010 (Jan. 25, 2011) (to be
         codified at 17 C.F.R. pts. 229, 240, and 249)
     •   Disclosure for Asset-Backed Securities Required by Section 943 of
         the Dodd-Frank Wall Street Reform and Consumer Protection Act,
         76 Fed. Reg. 4489 (Jan. 20, 2011) (to be codified at 17 C.F.R. pts.
         229, 232, 240, and 249)
     •   Issuer Review of Assets in Offerings of Asset-Backed Securities, 76
         Fed. Reg. 4231 (Jan. 20, 2011) (to be codified at 17 C.F.R. pts. 229
         and 230)


33
   See, e.g., 15 U.S.C. § 77b(b).
34
   15 U.S.C. § 78w(a)(2).
35
   Id.
Follow-Up Review of Cost-Benefit Analyses                            January 27, 2012
Report No. 499
                                            Page 12
     •   Reporting of Security-Based Swap Transaction Data, 75 Fed. Reg.
         64643 (interim final temporary rule, Oct. 13, 2010) (to be codified at
         17 C.F.R. pt. 240)
     •   Regulation SBSR—Reporting and Dissemination of Security-Based
         Swap Information, 75 Fed. Reg. 75208 (proposed Nov. 19, 2010)
         (to be codified at 17 C.F.R. pts. 240 and 242)

We found that the SEC included a cost-benefit analysis section in the proposing
releases for all five rulemakings and in the adopting releases for all of the
completed rulemakings. In the case of Regulation SBSR, the SEC had not
published an adopting release when we conducted our fieldwork; therefore, we
focused our analysis related to Regulation SBSR on the proposing release.

Our finding that the SEC consistently included cost-benefit analysis sections in its
proposing and adopting releases was consistent with what we found during our
phase I review. During phase I, at the request of the Senate Banking Committee,
we examined the following six SEC Dodd-Frank Act rulemakings: 36

     •   Credit Risk Retention, 76 Fed. Reg. 24090 (proposed Mar. 31,
         2011) (to be codified at 17 C.F.R. pt. 246)
     •   Clearing Agency Standards for Operation and Governance, 76 Fed.
         Reg. 14472 (proposed Mar. 3, 2011) (to be codified at 17 C.F.R. pt.
         240)
     •   Registration and Regulation of Security-Based Swap Execution
         Facilities, 76 Fed. Reg. 10948 (proposed Feb. 2, 2011) (to be
         codified at 17 C.F.R. pts. 240, 242, and 249)
     •   Reporting by Investment Advisers to Private Funds and Certain
         Commodity Pool Operators and Commodity Trading Advisors on
         Form PF, 76 Fed. Reg. 8068 (proposed Jan. 26, 2011) (to be
         codified at 17 C.F.R. pts. 275 and 279)
     •   Registration of Municipal Advisors, 76 Fed. Reg. 824 (proposed
         Dec. 20, 2010) (to be codified at 17 C.F.R. pts. 240 and 249)
     •   Conflict Minerals, 75 Fed. Reg. 80948 (proposed Dec. 15, 2010) (to
         be codified at 17 C.F.R. pts. 229 and 249)

In addition, in this phase II review, as in the phase I review, we found that the
extent of quantitative discussion of costs and benefits in the cost-benefit
analyses for the rulemakings reviewed varied and that qualitative information on
costs and benefits was generally discussed at greater length than quantitative
information. Specifically, we found the following in the proposed and final rule
releases that we examined in phase II:

     •   None attempted to quantify benefits.

36
   In this phase II review, we also examined and discuss, as appropriate, several of the Dodd-Frank Act
rulemakings we addressed in phase I.
Follow-Up Review of Cost-Benefit Analyses                                               January 27, 2012
Report No. 499
                                                Page 13
     •   All attempted to quantify the estimated PRA burden.
     •   None attempted to quantify non-PRA costs.
     •   Some used quantitative data to describe the market affected by the
         rulemaking.

The lack of quantitative discussion might have resulted from the fact that the
analysis—consistent with OGC guidance—addressed only the costs and benefits
of discretionary portions of the rulemaking and did not address the statutorily
mandated portions. In addition, the SEC Compliance Handbook notes that the
benefits of SEC rules “are generally difficult to quantify” and that in many cases it
will not be possible to do so. In such cases, it says, “[a] detailed qualitative
assessment of the anticipated benefits will thus be necessary.” 37

We also found during our phase II review that RiskFin economists were involved
in preparing or commenting on the cost-benefit analyses for the rulemaking
releases that we examined. We obtained copies of the comments provided by
RiskFin economists to the rulemaking teams and noted that they provided
substantive comments for each rulemaking. For example, our review of e-mails
and drafts of the adopting release related to disclosure requirements for asset-
backed securities38 found that RiskFin economists provided multiple sets of
comments to the rulemaking team during the process of finalizing the cost-benefit
analysis section. We also found that the rulemaking divisions—the Division of
Trading and Markets, the Division of Investment Management, and the Division
of Corporation Finance—work closely with OGC, which also provides comments
to rulemaking teams on the release drafts during the rulemaking process.

As we found during our phase I review, the SEC rulemaking divisions appeared
to adhere to the guidance in the SEC Compliance Handbook. Specifically, each
proposing release included a solicitation for comments from the public, including
comments on the cost-benefit analysis section of the release. For example, the
proposing release for the rulemaking on shareholder approval of executive
compensation and golden parachute compensation asked for “estimates of the
costs and benefits [described in the proposing release], as well as any costs and
benefits not already defined, that may result from the adoption of these proposed
amendments” and for “qualitative feedback on the nature of the benefits and
costs described . . . and any benefits and costs we may have overlooked.”39 We
also found that the cost-benefit analyses in the proposing releases that we
reviewed were informational in nature and avoided conveying an impression that
the Commission had reached any conclusions.

37
   Compliance Handbook at 42. A recent Government Accountability Office report on Dodd-Frank Act
implementation also commented on the difficulty of reliably estimating the cost of regulations to the financial
services industry and the nation and noted that the benefits of regulation generally are regarded as even
more difficult to measure. Government Accountability Office, Dodd Frank Act Regulations: Implementation
Could Benefit From Additional Analyses and Coordination, GAO-12-151 (Nov. 10, 2011), at 19.
38
   76 Fed. Reg. 4489.
39
   Shareholder Approval of Executive Compensation and Golden Parachute Compensation, 75 Fed. Reg.
66590, 66613 (proposed Oct. 18, 2010).
Follow-Up Review of Cost-Benefit Analyses                                                   January 27, 2012
Report No. 499
                                                  Page 14
We found that both the proposing and adopting releases of the rulemakings we
reviewed included descriptions of the markets to which the rules apply. The
market description usually appeared in a section near the beginning of the
release, and a section specifically devoted to cost-benefit analysis typically
appeared near the end of the release.

In analyzing the cost-benefit analyses in both our phase I and II reviews, the
OIG’s expert, Professor Kyle, has opined that the role of economists is crucial in
ensuring that cost-benefit analyses incorporate both qualitative and quantitative
information. Economists provide particular expertise when research is needed to
formulate quantitative measurements of costs and benefits based on how a
market operates. In addition, the recent court decision in Business Roundtable
and Chamber of Commerce v. Securities and Exchange Commission (known as
the proxy access case) suggests that courts expect a sophisticated level of cost-
benefit analysis in SEC rulemakings. 40 While we found that economists do play
a significant role in the SEC’s cost-benefit analyses, more extensive involvement
of economists, in the opinion of Professor Kyle, would assist the SEC in
conducting even more thorough analyses. According to Professor Kyle,
economists at the SEC have a high level of expertise, but this expertise is being
stretched thin. In addition, Professor Kyle believes that quantitative aspects of
cost-benefit analyses would be greatly facilitated if SEC economists already had
empirical expertise in relevant areas at the outset of regulatory initiatives, since
developing expertise in specific data areas may take years.

     Recommendation 1:

     Securities and Exchange Commission rulewriting divisions and the Division of
     Risk, Strategy, and Financial Innovation (RiskFin) should consider ways for
     economists to provide additional input into cost-benefit analyses of Securities
     and Exchange Commission rulemakings to assist in including both
     quantitative and qualitative information to the extent possible. 41

     Management Comments. The Division of Corporation Finance (CF),
     Division of Investment Management (IM), RiskFin, Division of Trading and
     Markets (TM), and OGC concur with this recommendation. See appendix VI
     for management’s full comments.




40
   See Business Roundtable and Chamber of Commerce v. Securities and Exchange Commission, 647 F.3d
1144 (D.C. Cir. Jul. 22, 2011), which vacated the SEC’s shareholder access rule, Rule 14a-11, as being
arbitrary and capricious because the SEC had failed to assess the economic effects of the rule adequately.
The rule would have required that public companies under certain circumstances include in their proxy
materials shareholder-proposed nominees to the board of directors.
41
   If the rulewriting divisions and RiskFin determine that it is not possible to quantify costs and benefits, they
should explain why and present any relevant quantitative information, along with a discussion of the
strengths and weaknesses of qualitative information provided. OMB Circular A-4 at 27.
Follow-Up Review of Cost-Benefit Analyses                                                    January 27, 2012
Report No. 499
                                                   Page 15
     OIG Analysis. We are pleased that CF, IM, RiskFin, TM, and OGC concur
     with this recommendation. See appendix VII for our full response to
     management’s comments.


Finding 2: The SEC’s Focus on Discretionary
Rulemaking Activities May Not Always Serve
the Broadest Purposes of Cost-Benefit
Analyses
         In the cost-benefit analyses for its Dodd-Frank Act rulemakings, the
         SEC generally focuses on discretionary components—portions of
         rulemakings in which the Commission is able to exercise choice.
         This focus on discretionary components may not provide a
         complete picture of the costs and benefits of implementing the
         statute.

According to Professor Kyle, 42 in addition to satisfying statutory requirements and
nonstatutory best practices, a cost-benefit analysis is intended to inform the
public and other parts of government, including Congress and the regulating
entity itself, of the effects of alternative regulatory actions. 43 By restricting its
cost-benefit analyses to discretionary elements of Dodd-Frank Act rulemakings,
the SEC is implicitly assuming that it can achieve these purposes without
examining the costs and benefits of mandatory elements of Dodd-Frank Act
rulemakings.

As discussed earlier in this report, although the SEC, an independent regulatory
agency, is not expressly required to conduct cost-benefit analyses for its
rulemakings, 44 there is an expectation that it will do so. 45 In addition, NSMIA
requires that the SEC consider ECCF in certain rulemakings. 46 Under the PRA,
the SEC is also required to evaluate the need for collection of information
proposed in rulemakings and to provide a specific estimate of the burden
imposed by information collection requirements.

When questions arose within SEC rulemaking teams and RiskFin about how to
conduct cost-benefit analyses for Dodd-Frank Act rulemakings, the former SEC
General Counsel provided guidance stating that the SEC “engages in economic
analyses to inform its exercise of discretion in rulemaking.” Based on this

42
   In this report, Professor Kyle is not expressing an opinion that SEC practice with respect to cost-benefit
analyses for Dodd-Frank Act rulemakings is inconsistent with legal requirements.
43
   See OMB Circular A-4 at 2.
44
   See discussion in the background section of this report of EO 12866 and EO 13563 and their applicability
to independent regulatory agencies.
45
   See Compliance Handbook at 37.
46
   See, e.g., 15 U.S.C. § 77b(b).
Follow-Up Review of Cost-Benefit Analyses                                                 January 27, 2012
Report No. 499
                                                 Page 16
rationale, the guidance states, “To the extent that the Commission is exercising
discretion, the release should discuss the costs and benefits of the choices
proposed or adopted, including where possible, a quantification of the costs and
benefits.” The guidance also states that when the Commission has no discretion,
it is making no policy choices, and “there are no choices to analyze or explain.” 47
OMB Circular A-4, which provides guidance to executive agencies on conducting
cost-benefit analyses required by EO 12866, specifies that agencies should
establish a baseline for use in defining the costs and benefits of an alternative
and that the baseline “normally will be a ‘no action’ baseline.”48 Moreover, the
circular recommends that when substantial portions of a rule simply restate
statutory requirements that would be self-implementing even in the absence of
the regulatory action, the agency “should use a pre-statute baseline.” 49 Circular
A-4 also states, “If you are able to separate out those areas where the agency
has discretion, you may also use a post-statute baseline to evaluate the
discretionary elements of the action.” 50 To the extent that the SEC performs
cost-benefit analyses only for discretionary rulemaking activities, in the opinion of
Professor Kyle, the SEC may not be fulfilling the essential purposes of such
analyses—providing a full picture of whether the benefits of a regulatory action
are likely to justify its costs and discovering which regulatory alternatives would
be the most cost-effective. 51

According to Professor Kyle, the following hypothetical example illustrates the
potential importance of using a pre-statute baseline for cost-benefit analyses:
Congress mandates a new rule but gives the SEC discretion to exempt small
firms from the rule. A cost-benefit analysis of applying the rule to all firms shows
that (1) the benefits of the new rule have a value equal to 1 percent of the market
capitalization of each firm and (2) the costs of complying with the rule are $1
million for each firm, regardless of its size. These results create a rationale for
exempting small firms because although the benefits for firms with capitalization
greater than $100 million exceed the $1 million compliance cost, the benefits for
firms with capitalization below $100 million do not. In this example, it would be
difficult or impossible to justify exempting firms with market capitalization below
$100 million without addressing the mandatory portions of the rule in the cost-
benefit analysis.

Moreover, it is often difficult to describe incremental costs and benefits of going
from the statutory mandate to a reasonable alternative without also describing
how the pre-statute state of the world differs from the statutory mandate. One
way to calculate the incremental costs and benefits of a reasonable alternative
and a statutory mandate is to describe the costs and benefits of the reasonable

47
   Memorandum from David M. Becker, General Counsel, Thoughts About Best Practices in Drafting
Economic Analysis Sections of Releases for Dodd-Frank Related Rulemakings (Privileged and Confidential)
(Sept. 27, 2010).
48
   OMB Circular A-4 at 2.
49
   OMB Circular A-4 at 15-16.
50
   OMB Circular A-4 at 16.
51
   See OMB Circular A-4 at 1-2.
Follow-Up Review of Cost-Benefit Analyses                                            January 27, 2012
Report No. 499
                                              Page 17
alternative relative to the pre-statute baseline, then subtract out the incremental
costs and benefits of the statutory mandate relative to the pre-statute baseline.

The SEC’s Use of a Post-Statute Baseline
We examined two Dodd-Frank Act rulemakings that considered only the costs
and benefits of discretionary components—in other words, that used a post-
statute baseline—in their cost-benefit analyses.

Shareholder Approval of Executive Compensation and Golden Parachute
Compensation (Final). Section 951 of the Dodd-Frank Act amended the
Exchange Act by adding Section 14A, which requires that companies conduct a
separate shareholder advisory vote to approve the compensation of executives
(also known as “say-on-pay”) and a separate shareholder advisory vote to
determine how often a shareholder advisory vote on executive compensation will
be conducted. In addition, Section 14A requires that companies soliciting votes
to approve mergers or acquisitions disclose certain “golden parachute”
compensation arrangements and, in certain circumstances, conduct a separate
shareholder advisory vote to approve such arrangements. The Dodd-Frank Act
assigned the SEC responsibility for promulgating regulations to implement
golden parachute disclosure compensation arrangements. The SEC issued its
final rule implementing Section 951’s requirements on January 25, 2011.

The final rule goes beyond a minimal implementation of the Dodd-Frank Act
requirements in a number of respects, including the following:

   •   It requires enhanced disclosures about how the issuer has taken
       into account the mandated advisory votes.
   •   It clarifies that companies required to conduct annual mandatory
       votes under the Troubled Asset Relief Program need not conduct
       redundant say-on-pay or frequency votes.
   •   It delays for two years requiring say-on-pay and frequency votes for
       small companies.
   •   It clarifies the ability of shareholders to make proposals relating to
       executive compensation.
   •   It requires both narrative and tabular disclosure on golden
       parachute compensation.
   •   It broadens the required golden parachute disclosures to include
       the full scope of such arrangements.

The introduction to the cost-benefit analysis section of the rule contains the
following language:

       We are sensitive to the costs and benefits imposed by the rule and
       form amendments we are adopting. The discussion below focuses
       on the costs and benefits of the amendments made by the
Follow-Up Review of Cost-Benefit Analyses                            January 27, 2012
Report No. 499
                                            Page 18
        Commission to implement the Act within its permitted discretion,
        rather than the costs and benefits of the Act itself. 52

In effect, this approach involves examining costs and benefits relative to a post-
Dodd-Frank Act baseline rather than a pre-Dodd-Frank Act baseline. Other SEC
rulemakings that include aspects mandated by the Dodd-Frank Act contain
similar language.

The Shareholder Approval of Executive Compensation and Golden Parachute
Compensation rule’s cost-benefit analysis is consistent with the approach
described. The adopting release’s discussion of costs and benefits is confined to
the costs and benefits of the provisions that go beyond the requirements of the
act. It does not discuss the costs and benefits of say-on-pay votes, frequency
votes, or disclosures and votes on golden parachute compensation that are
mandated by the Dodd-Frank Act. For example, the rule provides a two-year
deferral for small companies to conduct say-on-pay and frequency votes in order
to allow them to observe how the rules operate for other companies and to
prepare better for implementation of the rules. 53 Because the Commission did
not analyze the costs and benefits of the statutorily mandated say-on-pay and
frequency vote provisions, however, it is not possible to understand how the
Commission concluded that a temporary deferral for small companies was
justified. It is difficult to understand how the SEC is using its discretion on this
issue without also understanding the SEC’s thinking concerning the effects of the
mandatory provision requiring say-on-pay votes. In some cases, the additional
analysis necessary to address mandatory Dodd-Frank Act provisions may not be
difficult to undertake. For example, the rule also broadens the statutorily
mandated golden parachute disclosures to include the full scope of such
arrangements. It is likely that the costs and benefits of such fuller disclosures are
very similar to the costs and benefits of mandatory provisions, and discussion of
these discretionary costs and benefits would therefore have very similar content
to discussion of the mandatory provisions. Thus, addressing the statutorily
mandated disclosures in the cost-benefit analysis would likely impose no
significant additional analytical burden on rulemaking teams.

The rule contains a separate ECCF section, which, like the cost-benefit analysis,
uses a post-statute baseline. The discussion does not evaluate the effects of the
Dodd-Frank Act’s requirements on ECCF but instead addresses how the
differences between the rule and the requirements specified in the act affect
ECCF. 54

The approach to measuring costs mandated by the PRA differs from the
approach used in the cost-benefit analysis. First, according to the September

52
   76 Fed. Reg. 6010, 6037, http://federalregister.gov/a/2011-1971.
53
   SEC Adopts Rules for Say-on-Pay and Golden Parachute Compensation as Required Under Dodd-Frank
Act (press release) (Jan. 25, 2011), http://www.sec.gov/news/press/2011/2011-25.htm.
54
   See 76 Fed. Reg. 6010, 6040, http://federalregister.gov/a/2011-1971.
Follow-Up Review of Cost-Benefit Analyses                                       January 27, 2012
Report No. 499
                                            Page 19
2010 guidance from the former SEC General Counsel, “in connection with
releases where the Commission exercises no discretion, OMB has recently taken
the position that, if a rule contains [or amends?] a collection of information, we
must publish a PRA analysis with burden estimates and solicit comments on that
analysis.” 55 Second, the PRA covers only costs related to information disclosure.
Therefore, although the PRA estimate in such cases does use a pre-statute
baseline, it addresses only costs related to the information disclosure, as
indicated by the following statement in the adopting release for the Shareholder
Approval of Executive Compensation and Golden Parachute Compensation rule:
“We estimate the annual incremental paperwork burden for all companies to
prepare the disclosure that would be required under both Exchange Act Section
14A and our rule amendments to be approximately 24,942 hours of company
personnel time and a cost of approximately $7,841,200 for the services of
outside professionals.” 56

Because of the post-statute baseline used by the SEC in performing cost-benefit
analyses for Dodd-Frank Act rulemakings and addressing ECCF, along with the
limited scope of PRA requirements, the Shareholder Approval of Executive
Compensation and Golden Parachute Compensation rule lacks a complete
analysis of costs and benefits using a pre-statute baseline.

Issuer Review of Assets in Offerings of Asset-Backed Securities (Final).
Section 945 of the Dodd-Frank Act amended Section 7 of the Securities Act to
require the Commission to issue rules requiring any issuer of an asset-backed
security to “(1) perform a review of the assets underlying the asset-backed
security; and (2) to disclose the nature of the review. . . .” 57 Since performing a
review and disclosing the nature of the review are required by the act, the cost-
benefit analysis for the Issuer Review of Assets in Offerings of Asset-Backed
Securities rule—consistent with the approach described above—does not include
an analysis of the costs and benefits of performing a review and disclosing the
nature of the review. 58 Instead, the cost-benefit analysis discusses the
incremental costs and benefits of provisions that go beyond the minimal
requirements of the Dodd-Frank Act, in effect using a post-statute baseline
against which to measure costs and benefits. The introductory portion of the
cost-benefit analysis section of the adopting release for the Issuer Review of
Assets in Offerings of Asset-Backed Securities rule makes this clear with the
following language: “The discussion below focuses on the costs and benefits of
the amendments made by the Commission to implement the Act within the


55
   Memorandum from David M. Becker, General Counsel, Thoughts About Best Practices in Drafting
Economic Analysis Sections of Releases for Dodd-Frank Related Rulemakings (Privileged and Confidential)
(Sept. 27, 2010).
56
   76 Fed. Reg. 6010, 6039, http://federalregister.gov/a/2011-1971.
57
   15 U.S.C. § 77g(d).
58
   See Memorandum from David M. Becker, General Counsel, Thoughts About Best Practices in Drafting
Economic Analysis Sections of Releases for Dodd-Frank Related Rulemakings (Privileged and Confidential)
(Sept. 27, 2010).
Follow-Up Review of Cost-Benefit Analyses                                            January 27, 2012
Report No. 499
                                              Page 20
Commission’s permitted discretion and related amendments not required by the
Act, rather than the costs and benefits of the [Dodd-Frank] Act itself.” 59

The rule interprets the Dodd-Frank Act requirements narrowly:

     1. They are applicable only to registered transactions, not private
        transactions.
     2. Required reviews may be conducted by third parties, provided that
        the third party is named in the registration statement and consents
        to being named as an expert. (Being named as an expert imposes
        additional liability on the third party.)

The rule also goes beyond the minimal requirement in the following ways:

     1. It imposes a minimum standard on the review. The minimum
        review standard is a flexible, principles-based standard that does
        not specify the type of review an issuer must perform, but instead
        requires that the review “be designed and effected to provide
        reasonable assurance that the disclosure in the prospectus
        regarding the assets is accurate in all material respects.”60
     2. In addition to requiring disclosure of the nature of the review, it
        requires that the findings and conclusions of the review itself be
        disclosed—specifically, disclosures regarding the assets included in
        the pool that do not meet underwriting criteria and the identity of the
        entity that determined that the assets should be included. 61

The cost-benefit analysis section of the release discusses the costs and benefits
of excluding private transactions, use of third parties, requiring a minimum
standard, and requiring that findings be disclosed. 62 It does not discuss the costs
and benefits of the Dodd-Frank Act’s requirement for issuers to perform a review
of the underlying assets and disclose the nature of the review.

As previously noted, according to Professor Kyle, a key purpose of cost-benefit
analysis is to inform public debate and Congress. Professor Kyle believes,
however, that the public and Congress may be primarily interested in the costs
and benefits of the regulation relative to a pre-statute baseline, not in the
distinction between discretionary and nondiscretionary costs and benefits. If the
SEC’s analysis indicated that the costs of the mandatory provisions of the Issuer
Review of Assets in Offerings of Asset-Backed Securities rule are much greater
than their benefits, both Congress and the public might use this information to
consider whether to seek to weaken or repeal the mandatory provisions. On the
other hand, if the SEC’s analysis indicated that the benefits of the mandatory

59
   76 Fed. Reg. 4231, 4241.
60
   76 Fed. Reg. 4231, 4234.
61
   76 Fed. Reg. 4231, 4238.
62
   76 Fed. Reg. 4231, 4241-2.
Follow-Up Review of Cost-Benefit Analyses                             January 27, 2012
Report No. 499
                                            Page 21
provisions of the regulation are much greater than the costs, both Congress and
the public might use this information to consider strengthening those provisions.
In this sense, informing Congress and the public requires examining the costs
and benefits of mandatory Dodd-Frank Act provisions. In addition, in the future, it
is possible that the SEC will attempt empirical studies of the costs and benefits of
various Dodd-Frank Act regulations, for the purpose of suggesting modifications
to them. Such studies are likely to use a pre-statute baseline which includes the
costs and benefits of mandatory Dodd-Frank Act provisions. One possible use of
such studies would be to compare actual outcomes of regulations with the
outcomes predicted in the SEC’s cost-benefit analysis. For such a comparison to
be meaningful, the SEC’s cost-benefit analysis for the final rule would also need
to include the costs and benefits of mandatory Dodd-Frank Act provisions.

According to Professor Kyle, another purpose of cost-benefit analysis is to help
inform the regulating entity’s—the SEC’s, in this case—internal decision-making.
In the Issuer Review of Assets in Offerings of Asset-Backed Securities rule, the
SEC chose to go beyond the Dodd-Frank Act provisions by adding additional
requirements. On the one hand, in Professor Kyle’s view, it is possible that the
modest increases in transparency mandated by the Dodd-Frank Act would lead
to large benefits for investors, which would suggest that making the mandate for
transparency even stronger could lead to further benefits. On the other hand, it
is possible that the modest increases in transparency mandated by the statute
would lead to negligible benefits for investors, in which case discretionary
strengthening of disclosure requirements might only lead to benefits if the
strengthening operates through a different incentive mechanism. It is difficult to
understand how the SEC can make informed, logical, and consistent decisions
with respect to additional requirements without first analyzing the costs and
benefits of mandated provisions of the regulation.

The ECCF section of the rule asserts that the rule will improve ECCF, also
relative to a post-statute baseline. 63 It does not discuss the effect on ECCF of
the Dodd-Frank Act requirement that issuers conduct a review of assets in
offerings of asset-backed securities.

The PRA cost estimates in the final rule, consistent with OMB and SEC
guidance, use a pre-statute rather than a post-statute baseline. However, only
costs related to information collection are taken into account for PRA purposes.




63
     76 Fed. Reg. 4231, 4242.
Follow-Up Review of Cost-Benefit Analyses                            January 27, 2012
Report No. 499
                                            Page 22
           Recommendation 2:

           The Office of the General Counsel, in consultation with the Division of
           Risk, Strategy, and Financial Innovation, should reconsider its guidance
           that the Securities and Exchange Commission (SEC) should perform
           economic analyses for rulemaking activities to the extent that the SEC
           exercises discretion and should consider whether a pre-statute baseline
           should be used whenever possible.

           Management Comments. RiskFin and OGC generally concur with this
           recommendation. See appendix VI for management’s full comments.

           OIG Analysis. We are pleased that RiskFin and OGC generally concur
           with this recommendation. See appendix VII for our full response to
           management’s comments.


Finding 3: The SEC Has Sometimes Used
Multiple Baselines in Its Cost-Benefit
Analyses for Dodd-Frank Act Rulemakings in
an Inconsistent or Ambiguous Manner
           The cost-benefit analyses of some Dodd-Frank Act rulemakings
           have used multiple baselines that are difficult to define or internally
           inconsistent.

We examined several Dodd-Frank Act rulemakings, discussed below, that used
multiple baselines in their cost-benefit analyses that are ambiguous or internally
inconsistent.

Temporary Registration of Municipal Advisors (Interim
Final Temporary) and Registration of Municipal Advisors
(Proposed)
Section 975 of the Dodd-Frank Act amended section 15B of the Securities Act to
make it unlawful for municipal advisors to carry out their advisory activities unless
they registered with the SEC by October 1, 2010. 64 Despite this provision, the
Act did not specifically require the SEC to set up a registration process by a
particular date. On September 1, 2010, the SEC adopted an interim final
temporary rule for registration of municipal advisors, which was to expire on



64
     15 U.S.C. § 78o-4.
Follow-Up Review of Cost-Benefit Analyses                                January 27, 2012
Report No. 499
                                            Page 23
December 31, 2011. 65 Upon expiration of the interim final temporary rule,
municipal advisors would have to cease their activities unless the SEC had
established a valid registration process effective after that date.

According to Professor Kyle, the multiple baselines used in the cost-benefit
analyses of both the releases for the interim final temporary rule and the
proposed rule are ambiguous and internally inconsistent. One approach
assumes as a baseline a minimal registration process that allows municipal
advisors to continue their usual activities with limited disruption. This alternative
is consistent with the idea that Congress intended for the SEC to create a
registration process collecting minimal information. Another approach assumes
that municipal advisors would be required to cease their advisory activities in the
absence of a registration process, resulting in a shutdown of the municipal
advisory market. This alternative is consistent with the idea that the Dodd-Frank
Act gives the SEC discretion to shut down the market for municipal advisory
services by choosing not to create a registration process. Neither of these
alternatives constitutes a pre-statute baseline, which would consist of a market
for municipal advisory services functioning without an SEC registration process—
essentially how it functioned before enactment of the law. Such an approach
may be consistent with the SEC’s practice of considering only discretionary
action in its cost-benefit analyses. The absence of an explicit congressional
requirement to set up a registration process by a particular date contributes to
the ambiguity concerning how to define a post-statute baseline that incorporates
the requirements of the Dodd-Frank Act.

To some extent, the interim final temporary rule’s cost-benefit analysis appears
to use as a baseline a nonfunctioning municipal advisory service market because
it cites a functioning market as a benefit of the registration process created as
follows:

        Absent such means to register, municipal advisors would have to
        cease providing municipal advisory services, which may have a
        significant adverse impact on their businesses and on municipal
        entities and obligated persons engaged in issuing municipal
        securities or other activities for which they obtain the advice of a
        municipal advisor. . . . The interim final temporary rule is designed
        to provide a method by which municipal advisors may continue to
        provide municipal advisory services to municipal entities and
        obligated persons without violating Section 15B(a)(2) of the
        Exchange Act. 66

Other parts of the cost-benefit analysis of the interim final temporary rule,
however, use a minimal registration process as a baseline and do not assume

65
   In December 2011, the interim final temporary rule was amended to extend the expiration date to
September 30, 2012. See 76 Fed. Reg. 80733.
66
   75 Fed. Reg. 54465, 54474.
Follow-Up Review of Cost-Benefit Analyses                                               January 27, 2012
Report No. 499
                                                Page 24
that the SEC has discretion with respect to establishing a registration process.
Instead, they cite incremental benefits associated with requirements that assume
the existence of a functioning market for municipal advisors and that go beyond
the minimal requirements. For example, the interim final temporary rule requires
that registrants provide useful information about disciplinary history to regulators,
investors, municipal entities, and the investing public. The cost-benefit analysis
cites as a benefit of this requirement that municipal entities and others will be
more fully informed when choosing a municipal advisor. The rule also requires
that municipal advisors provide their information in a standardized format; a
benefit cited for this requirement is that use of a standardized format lowers the
costs for municipal entities when they compare municipal advisors. 67

The ECCF section of the interim final temporary rule contains language that is
incompatible with a baseline that assumes that the SEC has discretion about
whether to create a registration process for municipal advisors: “The temporary
registration of municipal advisors will facilitate the Congressional mandate to
register municipal advisors and establish an efficient system to provide
information to the Commission, the public, and municipal entities.” 68 The idea
that the Dodd-Frank Act includes a congressional mandate to set up a
registration process is inconsistent with the assumption that the SEC has
discretion not to create such a process.

As in the case of the interim final temporary rule, according to Professor Kyle,
there is ambiguity with respect to the appropriate cost-benefit analysis baseline
for the proposed rule. In addition to the two baselines that appear to be used in
the interim final temporary rule (a minimal registration process and a shutdown of
the market for municipal advisory services), there is another potential baseline—
the temporary registration process set up by the interim final temporary rule.
Each of these three baselines differs from the pre-statute business-as-usual with
no registration baseline.

In the proposing release, the introduction to the economic analysis section does
contain language suggesting that the SEC evaluates costs and benefits
associated with its use of discretion, rather than with statutory mandates, but the
language differs from what appears in other rules. The proposing release for the
Registration of Municipal Advisors rule states as follows:

           The Commission is sensitive to the costs and benefits imposed by
           its rules. The discussion below focuses on the costs and benefits
           of the decisions made by the Commission to fulfill the mandates of
           the Dodd-Frank Act within its permitted discretion, rather than the
           costs and benefits of the mandates of the Dodd-Frank Act itself.
           However, to the extent that the Commission’s discretion is
           exercised to realize the benefits intended by the Dodd-Frank Act or

67
     75 Fed. Reg. 54465, 54474.
68
     75 Fed. Reg. 54465, 54475.
Follow-Up Review of Cost-Benefit Analyses                              January 27, 2012
Report No. 499
                                            Page 25
           to impose the costs associated with the Dodd-Frank Act, the two
           types of benefits and costs are not entirely separable. Accordingly,
           the PRA hourly burden estimates made in accordance with the
           requirements of the PRA, and their corresponding dollar cost
           estimates, are included in full below, although a portion of the cost
           to register is attributable to the requirements of the Dodd-Frank Act
           and not to the specific rules proposed by the Commission. 69

According to Professor Kyle, this language does not provide a clear, consistent
baseline for the Commission’s analysis of costs and benefits. It indicates that the
analysis focuses on discretionary SEC decisions rather than on Dodd-Frank Act
mandates, but that the discretionary and mandatory costs may be impossible to
fully separate. In addition, the language states that a portion of the PRA costs
included in the PRA burden estimates are attributable to provisions mandated by
the Dodd-Frank Act rather than to SEC rulemaking. Both of these assertions
imply that the Dodd-Frank Act requires creation of a minimal registration process
and that the SEC’s analysis of costs and benefits uses a post-statute baseline—
one that assumes the existence of a statutorily mandated minimal registration
process—to the extent possible but that inclusion of some costs arising from the
mandated provisions is unavoidable.

Among the provisions of the proposed rule that go beyond creating a minimal
registration process are the requirements that registrants provide information in a
standard format, provide information concerning disciplinary history and potential
conflicts, and make their books and records open for SEC inspection. The
proposed rule also provides for sanctions for false and misleading statements by
municipal advisors.

Professor Kyle believes that the discussion of costs and benefits in the economic
analysis section of the proposing release does not seem to include the costs and
benefits of the minimal registration system assumed to be mandated by the
Dodd-Frank Act. The discussion of benefits does point out that some states
already require municipal advisor registration, in comparison with which the
proposed SEC registration system offers incremental benefits. In these respects,
the rule consistently uses a minimal registration process against which to
compare the costs and benefits of the SEC’s use of its discretion to go beyond
the minimal requirements in its proposed rule.

Unlike the temporary rule release, the proposing release does not include any
reference to the assumption that municipal advisors would cease their advisory
activities if the temporary registration process were not extended beyond its
expiration date or if a permanent registration system were not adopted by that
date.



69
     76 Fed. Reg. 824, 872.
Follow-Up Review of Cost-Benefit Analyses                               January 27, 2012
Report No. 499
                                            Page 26
Reporting and Dissemination of Security-Based Swap
Information (Proposed)

The cost-benefit analysis section of the SEC’s proposing release for the
Reporting and Dissemination of Security-Based Swap Information (Regulation
SBSR) rule, issued on November 19, 2010, does not contain language stating
that the costs and benefits discussed are only those resulting from the SEC’s use
of its discretion. The proposed regulation was developed in response to the
Dodd-Frank Act requirement that the SEC adopt rules providing for (1) reporting
security-based swaps to a registered swap data repository (SDR) or the SEC and
(2) real-time public dissemination of security-based swap transactions, volume,
and pricing information. 70 Proposed Regulation SBSR consists of a set of
reporting and related rules for security-based swap transactions to address this
requirement.

According to Professor Kyle, establishing cost-benefit analysis baselines for
proposed Regulation SBSR is complicated because its rules interact with many
other rules, some of which have not been officially promulgated. The release for
Proposed Regulation SBSR does not make clear whether issues involving
definitions, coordination with other agencies, and international coordination would
affect baselines for the cost-benefit analysis or are raised only in the context of
discussing regulatory boundaries from a legal perspective. Sections of the
release other than the cost-benefit analysis discuss the proposed regulation’s
dependence on other regulations, such as those that define key terms. The
release also mentions that fair and open access to reported swap data is the
subject of a separate rulemaking and discusses coordination of regulations with
CFTC and other regulators, as well as issues associated with international
coordination and competition.

Proposed Regulation SBSR contains the following 13 individual proposed rules:

       A.   Rule 900: Definitions of terms
       B.   Rule 901: Reporting of trades to SDRs (and then to the SEC)
       C.   Rule 902: Public reporting of some information about trades by SDRs
       D.   Rule 903: Reference codes
       E.   Rule 904: Operating hours
       F.   Rule 905: Error corrections
       G.   Rule 906: Other duties
       H.   Rule 907: Policies and procedures
       I.   Rule 908: Jurisdictional matters
       J.   Rule 909: Registration of SDR as securities information processor (SIP)
       K.   Rule 910: Implementation timetable

70
     75 Fed. Reg. 75208, 75209.
Follow-Up Review of Cost-Benefit Analyses                              January 27, 2012
Report No. 499
                                            Page 27
       L. Rule 911: Phase-in
       M. Amendments to Rule 31: Fees

The cost-benefit analysis section of the release examines costs and benefits of
each of the 13 rules separately. Examining the costs and benefits of rules
separately is consistent with guidance in OMB Circular A-4. 71

In its cost-benefit analysis of individual rules, according to Professor Kyle, the
release does not state clearly which of the other 12 rules are to be considered in
place as baselines for the purpose of measuring incremental costs and benefits
of the specific rule being analyzed. One possible interpretation is that the costs
and benefits are incremental—that is, rule 900 assumes that none of the other
listed rules is in place, rule 901 assumes that rule 900 is in place, rule 902
assumes that rules 900 and 901 are in place, and so on.

For costs, it is clear that the costs of some of the proposed rules are incremental
costs based on other rules also being proposed. For benefits, there are potential
unintended consequences associated with implementing some rules but not
others. For example, if rule 905 did not require errors to be corrected and there
was no penalty for reporting erroneous data, then market participants might
intentionally engage in sloppy reporting, undermining the benefits of rules 901
and 902. An illustration of this point concerns rule 908, which pertains to the
application of Regulation SBSR to cross-border swap transactions and to non-
U.S. persons. 72 The cost-benefit analysis states that because the SEC does not
have discretion to extend the reach of U.S. law to foreign jurisdictions, there are
no costs or benefits other than those inherent in the Dodd-Frank Act. According
to Professor Kyle, this represents an important inconsistency in the proposing
release’s use of pre-statute baselines. It is possible that the proposed rules
might induce U.S. swap trading to migrate to foreign jurisdictions. This incentive
might be mitigated to the extent that the SEC coordinated its regulations with
foreign jurisdictions, but the proposing release’s cost-benefit analysis does not
address this issue. To do so would require that the cost-benefit analyses for the
other proposed rules incorporate a baseline assumption about whether U.S. law
does or does not apply to foreign jurisdictions, as a result of which derivatives
trading may or may not move offshore.

Proposed Regulation SBSR has a separate ECCF section, which contains the
following statement:

           The Commission preliminarily believes that public availability of
           transaction and pricing data for [security-based swaps], as required
           by the Dodd-Frank Act and implemented by proposed Regulation
           SBSR, would promote efficiency, competition, and capital formation
           by reducing information asymmetries, lowering transaction costs,

71
     OMB Circular A-4 at 17.
72
     See 75 Fed. Reg. 75208, 75287.
Follow-Up Review of Cost-Benefit Analyses                              January 27, 2012
Report No. 499
                                            Page 28
           and encouraging market participation from a larger number of
           firms. 73

In this manner, the ECCF section alludes to benefits of the proposed rules, but
does not analyze or state in any detail the specific sources of such benefits.

The analysis of PRA costs is also disaggregated by individual rule into costs
related to definitions, reporting obligations, public dissemination, coding
requirements, operating hours, error correction, policies and procedures,
jurisdictional matters, registration of SDRs as securities information processors,
and phase-in rules. The costs reported in the cost-benefit analysis section are
disaggregated similarly, and they resemble the PRA costs.

           Recommendation 3:

           Securities and Exchange Commission (SEC) rulemaking teams should
           generally use a single, consistent baseline in the cost-benefit analyses of
           their rulemakings related to a particular topic. The baseline being used
           should be specified at the beginning of the cost-benefit analysis section. If
           multiple baselines are appropriate, such as for evaluating alternative
           approaches or explaining the SEC’s use of discretion, they should also be
           explained and justified.

           Management Comments. CF, IM, RiskFin, TM, and OGC concur with
           this recommendation. See appendix VI for management’s full comments.

           OIG Analysis. We are pleased that CF, IM, RiskFin, TM, and OGC
           concur with this recommendation. See appendix VII for our full response
           to management’s comments.


Finding 4: Some Dodd-Frank Act Rulemakings
Combine Their Cost-Benefit Analysis and ECCF
Sections, and This Approach Reduces
Redundancy
           There is considerable overlap between the cost-benefit
           analysis and ECCF sections of the releases for Dodd-Frank
           Act regulations. In some releases, these sections have been
           combined, thereby reducing redundancy.

Most of the proposing and adopting releases for rules implementing the Dodd-
Frank Act have similar structures. They begin with sections that describe the
73
     75 Fed. Reg. 75208, 75280.
Follow-Up Review of Cost-Benefit Analyses                                January 27, 2012
Report No. 499
                                            Page 29
legal basis for the rule, the market the rule regulates, the content of the proposed
or final rule, and reasons for choices made in determining the rule’s content.
They conclude with separate sections containing PRA cost estimates, the cost-
benefit analysis, and a discussion of the rule’s effect on ECCF. Although the
cost-benefit analysis and the discussion of ECCF are usually in separate
sections, these sections often repeat information that appears elsewhere in the
document. For example, the description of the market, which appears at the
beginning of the document, is also a fundamental component of both the cost-
benefit analysis and the ECCF discussions. In addition, the ECCF section
typically repeats or summarizes information that appears in the cost-benefit
analysis section. 74

According to Professor Kyle, combining the cost-benefit analysis and ECCF
sections helps eliminate redundancy in the text of the rulemakings. Two of the
SEC’s Dodd-Frank Act rule releases—the proposing release for the Credit Risk
Retention rule and the proposing release for the Registration of Municipal
Advisors rule—deviated from the typical structure and combined the cost-benefit
analysis and ECCF sections into one integrated section. The proposing release
for the Credit Risk Retention rule contains a section called Commission
Economic Analysis instead of separate cost-benefit analysis and ECCF
sections. 75 Although the proposed Credit Risk Retention rule is a joint rule of six
agencies, the wording of the Commission Economic Analysis section (as well as
the name of the section) indicates that it consists of the SEC’s analysis alone.
The section contains language that usually appears separately in the cost-benefit
analysis section and the ECCF section, and its description of the statutory
framework combines information that would normally appear in the separate
sections. The proposing release for the Registration of Municipal Advisors rule
also combines material that would otherwise be in separate cost-benefit analysis
and ECCF sections into a single section called Economic Analysis. 76

We understand that for the past several months RiskFin has been considering
whether to recommend the combination of the cost-benefit analysis and ECCF
sections in all SEC rulemakings.




74
   In Business Roundtable and Chamber of Commerce v. Securities and Exchange Commission (the “proxy
access rule” case), 647 F.3d 1144, 1148 (D.C. Cir. 2011), the court ruled that the SEC failed to adequately
consider the proxy access rule’s effect on efficiency, competition, and capital formation. The adopting
release for the rule at issue contained both a cost-benefit analysis section and an ECCF section. In its
discussion of costs and benefits, the court cited the ECCF section infrequently, but frequently cited the cost-
benefit analysis section and also frequently cited other sections of the adopting release. In this sense,
according to Professor Kyle, the court’s ruling equated ECCF with cost-benefit analysis and recognized that
cost-benefit analysis material is contained not only in the cost-benefit analysis section but also in other
sections of the rule. The court’s use of the information suggests that it might be reasonable for the SEC
either to combine the cost-benefit analysis and ECCF sections into a single section or to spread the ECCF
and cost-benefit analysis material throughout the rule rather than devoting specific sections to these topics.
75
   75 Fed. Reg. 75,208, 75177.
76
   See 76 Fed. Reg. 824, 872-878.
Follow-Up Review of Cost-Benefit Analyses                                                  January 27, 2012
Report No. 499
                                                  Page 30
         Recommendation 4:

         Securities and Exchange Commission rulewriting divisions should
         consider discontinuing the practice of drafting separate cost-benefit
         analysis and efficiency, competition, and capital formation sections and
         instead provide a more integrated discussion of these issues in rule
         releases.

         Management Comments. CF, IM, RiskFin, TM, and OGC concur with
         this recommendation. See appendix VI for management’s full comments.

         OIG Analysis. We are pleased that CF, IM, RiskFin, TM, and OGC
         concur with this recommendation. See appendix VII for our full response
         to management’s comments.


Finding 5: Dodd-Frank Act Rulemakings Lack
Adequate Discussion of Market Failure or
Other Justification for Regulation
         The SEC’s Dodd-Frank Act rulemakings lack clear, explicit
         explanations of the justification for regulatory action. Some
         of the rulemakings for which market failure is a justification
         allude to market failure but do not explicitly cite it as a
         justification or fully discuss it. Other rulemakings include
         language that erroneously suggests a market failure
         justification and contain no compelling alternative rationale in
         support of the action.

OMB Circular A-4 identifies market failure as one of several possible justifications
for federal agency regulation. Specifically, the circular provides that an agency
must demonstrate that proposed action is necessary before recommending
regulatory action, citing EO 12866’s requirement that agencies “promulgate only
such regulations as are required by law, are necessary to interpret the law, or are
made necessary by compelling need, such as material failures of private markets
to protect or improve the health and safety of the public, the environment, or the
well being of the American people.” 77 OMB Circular A-4 also notes that EO
12866 requires each agency to “identify the problem that it intends to address
(including, where applicable, the failures of private markets or public institutions

77
  OMB Circular A-4 at 3-4 (quoting EO 12866). The circular also states that if the regulatory intervention
results from a statutory or judicial directive, the agency should describe the specific authority for its proposed
action, the extent of discretion available to the agency, and the regulatory instruments the agency might use.
The circular does not indicate, however, that this is all the information that should be included when a
regulatory intervention results from a statutory or judicial directive, nor does it suggest that regulations
required by law and regulations designed to address a significant market failure are mutually exclusive.
Follow-Up Review of Cost-Benefit Analyses                                                    January 27, 2012
Report No. 499
                                                   Page 31
that warrant new agency action)” and to assess the significance of the problem. 78
The Circular then states the following:

       Thus, you should try to explain whether the action is intended to
       address a significant market failure or to meet some other
       compelling public need such as improving governmental processes
       or promoting intangible values such as distributional fairness or
       privacy. If the regulation is designed to correct a significant market
       failure, you should describe the failure both qualitatively and (where
       feasible) quantitatively. You should show that a government
       intervention is likely to do more good than harm. For other
       interventions, you should also provide a demonstration of social
       purpose and the likelihood of effective action. 79

There are three major types of market failure:

     1. Externality. An externality arises when a market participant’s
        choice has uncompensated effects on others. For example, a
        negative externality arises when one participant chooses to pollute
        the environment but does not have to pay for the costs imposed on
        others as a result of the choice.
     2. Market power. Firms use market power when they reduce their
        output below what would be offered in a competitive industry in
        order to obtain higher prices. A market is considered competitive if
        each participant has too little market power to influence prices.
     3. Inadequate or asymmetric information. Information asymmetry
        arises when one market participant has access to information to
        which other market participants do not have access. 80

A number of the SEC’s Dodd-Frank Act rulemakings refer to benefits resulting
from improved information or reduction in information asymmetries. However,
according to Professor Kyle, the rule releases do not explicitly spell out a market
failure theory predicting that government regulation can lead to benefits that
exceed the costs. A more focused discussion of market failure in cost-benefit
analyses would lay out the rationale for regulation more clearly to Congress, the
general public, and the SEC itself.

The following are examples of the use or nonuse of market failure as a
justification for Dodd-Frank Act rulemakings.




78
   OMB Circular A-4 at 4 (quoting EO 12866).
79
   OMB Circular A-4 at 4 (emphasis added).
80
   See OMB Circular A-4 at 4-5.
Follow-Up Review of Cost-Benefit Analyses                             January 27, 2012
Report No. 499
                                               Page 32
Proposed Regulation SBSR
According to Professor Kyle, although the provisions of proposed Regulation
SBSR address market failure—information asymmetries and market power—the
proposal does not explicitly cite or adequately discuss market failure as a
justification for the regulation.

The cost-benefit analysis section of the release for Proposed Regulation SBSR
contains the following statement: “By reducing information asymmetries, post-
trade transparency has the potential to lower transaction costs, improve
confidence in the market, encourage participation by a larger number of market
participants, and increase liquidity in the [security-based swap] market.” 81
Although this statement does not explicitly assert a market failure theory based
on information asymmetries, according to Professor Kyle, it does imply that a
market failure theory could be built on the idea of information asymmetries.

The proposal outlines a theory that dealers intermediating “natural longs” and
“natural shorts” could not efficiently do so unless they were allowed to keep
information about the size (and perhaps direction) of their intermediating trades
private during the period when they are trying to hedge positions acquired as part
of the intermediation process. 82 It also outlines a contrasting theory that prompt
reporting would encourage uninformed dealers to be willing to provide liquidity. 83
According to Professor Kyle, these two theories are not consistent with one
another, and the proposal does not offer theories or empirical evidence to
support which of the conflicting theories is correct. At a minimum, a theory
should explain why the costs and benefits associated with applying a set of
reporting rules to large trades are not proportional to the costs and benefits
associated with applying the same rules to small trades. The proposed rule does
not develop enough of a market failure theory to distinguish between competing
hypotheses about allowing later reporting of large trades. Instead of developing
such a theory, the proposed rule solicits comments.

Professor Kyle believes that in the context of security-based swap trading, there
are many different kinds of information that might be private, including
information about the fundamental value of the asset, what others believe the
fundamental value to be, the quantities and prices of recent trades, the identities
of counterparties to recent trades, bid and offer prices quoted by competitors,
and the quality of information to which potential counterparties might have
access. For this reason, developing a market failure theory based on information
asymmetries is very complex.

In addition to information asymmetries, according to Professor Kyle, there are
important elements of market power in security-based swap trading that may

81
   75 Fed. Reg. 75208, 75224.
82
   75 Fed. Reg. 75208, 75225-75226.
83
   75 Fed. Reg. 75208, 75226.
Follow-Up Review of Cost-Benefit Analyses                           January 27, 2012
Report No. 499
                                            Page 33
affect the competitiveness of the industry. Large dealers may have concentrated
market shares of trading volumes. Furthermore, there are clear economies of
scale in security-based swap trading that might enable a firm to exercise market
power. Similarly, there are clear efficiencies in having one set of data standards
for reporting security-based swaps. Dealers may also play an important role in
the governance of SDRs. If large dealers are also owners of SDRs, the issues of
monopoly power become even more complex. Professor Kyle pointed out that
the release for proposed Regulation SBSR pays little attention to the interaction
between information asymmetries, monopoly power, and economies of scale.
The proposing release, however, does address the issue of pricing of services of
SDRs. It recognizes that the pricing of SDR services has monopoly components
and that high prices might redistribute resources from market participants to
vendors of data standards or SDR services.

Issuer Review of Assets in Offerings of Asset-Backed Securities
According to Professor Kyle, the adopting release for the Issuer Review of
Assets in Offerings of Asset-Backed Securities rule does not explicitly present a
market failure justification for the regulation, but its ECCF section suggests that
the market may not have supplied an adequate amount of information—a
potential indication of market failure. The ECCF section of the adopting release
defines the economic problem being addressed as follows:

           As a result of the financial crisis and subsequent events, the market
           for securitization has declined due, in part, to perceived uncertainty
           about the accuracy of information about the pools backing the
           [asset-backed securities] and perceived problems in the
           securitization process that affected investors’ willingness to
           participate in these offerings. Greater transparency of the review
           performed on the underlying assets would decrease the uncertainty
           about pool information and, thus, should help investors price these
           products more accurately. 84

According to Professor Kyle, however, this logic does not suggest a market
failure theory. On the contrary, unless there are regulations preventing
securitizers from being transparent about the reviews they conduct, the adopting
release’s definition of the problem could be a preamble to a non-market failure
theory explaining why market forces should give securitizers incentives to be
appropriately transparent about their review processes, without being required to
do so by government regulation. In addition, in the absence of a market failure
justification, the rule lacks a clear discussion of a “compelling social purpose” for
the regulation, as called for in OMB Circular A-4. 85



84
     76 Fed. Reg. 4231, 4242 (footnote omitted).
85
     OMB Circular A-4 at 4.
Follow-Up Review of Cost-Benefit Analyses                                January 27, 2012
Report No. 499
                                                   Page 34
Credit Risk Retention. Like the adopting release for the Issuer Review of
Assets in Offerings of Asset-Backed Securities rule, according to Professor Kyle,
the proposing release for the Credit Risk Retention rule does not develop an
explicit market failure theory to justify the regulatory action but uses language
that suggests a market failure theory—adverse selection based on private
information. The proposed rule does not address a market failure, however, and
it provides no compelling alternative justification for regulatory action.

The proposed rule contains a discussion of misaligned incentives and lack of
discipline in the origination process:

        When properly structured, securitization provides economic
        benefits that lower the cost of credit to households and businesses.
        However, when incentives are not properly aligned and there is a
        lack of discipline in the origination process, securitization can result
        in harm to investors, consumers, financial institutions, and the
        financial system. During the financial crisis, securitization displayed
        significant vulnerabilities to informational and incentive problems
        among various parties involved in the process. 86

Section 15G of the Exchange Act, as added by Section 941 of the Dodd-Frank
Act, addresses the problem of misaligned incentives by requiring that securitizers
retain an economic interest in the credit risk of the assets they securitize. 87
Instead of having its own market failure analysis, the proposing release for the
Credit Risk Retention rule refers to the analysis in the legislative history of the
Dodd-Frank Act. 88 The proposing release also cites a report to Congress on risk
retention by the Federal Reserve, which discusses incentive problems
associated with securitizations. 89

In Professor Kyle’s opinion, the idea that a regulation mandating credit risk
retention aligns incentives of securitizers with investors is not a market failure
theory. A market failure theory is based on the idea that government regulation
can address an economic problem more effectively than can market forces
operating free of government intervention. Operating free of government
intervention, investors can demand credit risk retention or some other protective
mechanisms by avoiding securitizations in which the securitizer does not retain
an appropriate level of credit risk to align incentives efficiently. Thus, according
to Professor Kyle, the proposing release for the Credit Risk Retention rule does
not spell out a market failure theory that explains how government regulation can
solve a problem better than unregulated markets, and the proposed rule does not
create a new protective mechanism that unregulated market forces do not

86
   76 Fed. Reg. 24090, 24095 (footnotes omitted).
87
   15 U.S.C. § 78o-11.
88
   76 Fed. Reg. 24090, 24095-24096.
89
   76 Fed. Reg. 24090, 24095. The report cited is Board of Governors of the Federal Reserve System,
Report to the Congress on Risk Retention (October 2010), http://federalreserve.gov/boarddocs/
rptcongress/securitization/riskretention.pdf.
Follow-Up Review of Cost-Benefit Analyses                                            January 27, 2012
Report No. 499
                                              Page 35
already make available. Further, the proposing release does not discuss a
“compelling social purpose” that would otherwise explain the need for regulatory
action.

       Recommendation 5:
       The Commission should consider directing rulemaking teams to (a)
       explicitly discuss market failure as a justification for regulatory action in the
       cost-benefit analysis of each rule that is based in whole or in part on
       perceived market failure or (b) in the absence of market failure,
       demonstrate a compelling social purpose that justifies regulatory action.

       Management Comments. Management does not concur with this
       recommendation primarily because of uncertainty about the
       recommendation’s scope and meaning. See appendix VI for
       management’s full comments.

       OIG Analysis. Management’s response indicates, among other things,
       that discretionary rulemakings may often not be premised on market
       failure, and that OMB Circular A-4 does not recommend that an agency
       provide market failure justifications for statutorily mandated rulemakings.
       However, our recommendation does not suggest that market failure is the
       sole acceptable justification for rulemaking. Instead, it provides that in
       instances when market failure is the justification for a rulemaking, the
       Commission should consider having the rulemaking teams explicitly
       discuss market failure.

       In addition, the management response appears to takes the position that
       where rulemaking is based on a statutory requirement, the Commission
       should never articulate market failure as a basis for the rule and that to do
       so would “disregard the law.” However, OMB Circular A-4 states, based
       on Executive Order 12866, that the agency should try to explain whether
       the regulatory action is intended to address a significant market failure or
       to meet some other compelling public need. The circular does not state
       that an agency should do this only in situations where there is no statutory
       directive requiring the agency to promulgate regulations.

       We are neither suggesting that the SEC staff discuss market failure in
       situations where market failure has no nexus to the proposed regulatory
       action nor advocating an approach that it is in any way contrary to OMB
       Circular A-4. Rather, recommendation 5 is designed to promote
       adherence to OMB Circular A-4’s guidance.

       See appendix VII for our full response to management’s comments.



Follow-Up Review of Cost-Benefit Analyses                               January 27, 2012
Report No. 499
                                            Page 36
Finding 6: The SEC Rarely Addresses
Internal Administrative Costs or Savings in
the Cost-Benefit Analyses of Its Dodd-Frank
Act Rulemakings
           Although some of the SEC’s Dodd-Frank Act rulemakings
           may result in significant costs or benefits to the Commission
           itself, internal costs and benefits are not always addressed in
           the      cost-benefit   analyses.        Considering    internal
           administrative costs and benefits is consistent with the
           purposes of a cost-benefit analysis, however, and provides a
           more complete picture of economic costs and benefits
           associated with government regulation.

Several of the SEC’s Dodd-Frank Act rules will result in significant economic
costs or benefits to the SEC itself. A number of the rules cite improved
government regulation as a potential benefit. In some cases, improved
government regulation could result from the SEC’s incurring lower costs to
achieve the same benefits; in other cases, it could involve the SEC’s incurring
significant new costs to achieve new benefits.

Considering internal costs and savings in cost-benefit analyses is consistent with
guidance in OMB Circular A-4, which states that estimates of government
administrative costs and savings should be included in cost-benefit analyses
when they are significant. 90 Doing so is also consistent with the key purpose of
cost-benefit analysis cited in OMB Circular A-4:

           A good regulatory analysis is designed to inform the public and
           other parts of the Government (as well as the agency conducting
           the analysis) of the effects of alternative actions. Regulatory
           analysis sometimes will show that a proposed action is misguided,
           but it can also demonstrate that well-conceived actions are
           reasonable and justified. 91

According to Professor Kyle, using a pre-Dodd-Frank Act baseline that includes
internal SEC costs in the cost-benefit analysis would allow the SEC to more fully
inform Congress and the public about the SEC’s strategy for achieving the aims
of the act and the resource implications of different regulatory choices.
Understanding internal administrative costs or benefits could also help SEC
rulewriting teams choose among possible regulatory alternatives. Moreover,
specifying internal administrative costs in cost-benefit analyses would inform
Congress of the resources that the SEC expects to need to implement Dodd-

90
     OMB Circular A-4 at 37.
91
     OMB Circular A-4 at 2.
Follow-Up Review of Cost-Benefit Analyses                                January 27, 2012
Report No. 499
                                            Page 37
Frank Act mandates and clarify which benefits would not be achieved if the
SEC’s budget did not include the necessary resources.

Senior SEC management confirmed that the Commission does not consider
internal administrative costs in its cost-benefit analyses for Dodd-Frank Act
rulemakings, but said that SEC administrative costs associated with the
rulemakings are incorporated in budget submissions to Congress.
A June 2011 report by the CFTC OIG addressed the issue of considering internal
costs in Dodd-Frank Act rulemakings. 92 The report found that internal
implementation costs were not calculated for the cost-benefit analyses of the four
proposed rules examined. According to CFTC management, “staff labor
necessary to implement Dodd-Frank had been calculated overall by each
Division, and these quantified estimates were included in CFTC budget
submissions, but the cost to implement each regulation had not been
quantified.”93 The report also noted that the rulemakings contained no estimates
of opportunity costs—that is, the extent to which implementation of Dodd-Frank
Act rules might diminish CFTC regulatory efforts in other areas. 94 CFTC has
recently issued guidance for conducting cost-benefit analyses of Dodd-Frank Act
rules that directs staff to “consider the costs of implementation during its
consideration of each final rulemaking.” 95

Two examples of the SEC’s failure to consider internal costs in its Dodd-Frank
Act rulemakings identified by Professor Kyle are discussed below.

Registration of Municipal Advisors (Proposed)
The proposing release for the Registration of Municipal Advisors rule does not
consider internal SEC costs in its cost-benefit analysis. (The cost-benefit
analysis for the interim final temporary rule also did not consider SEC costs.)
The proposing release refers to the intent of Section 15B of the Exchange Act, as
amended by the Dodd-Frank Act, to “strengthen oversight” of the municipal
securities market 96 and to efficiencies resulting from provision of otherwise more
costly information to municipal entities and the investing public.

According to Professor Kyle, carrying out the legislative intent to strengthen
oversight of the municipal securities market presumably will require that the SEC
expend resources on oversight. For example, the SEC will incur the costs of
setting up an information technology infrastructure, purchasing equipment, and

92
   CFTC OIG, A Review Of Cost-Benefit Analyses Performed by the Commodity Futures Trading
Commission in Connection With Rulemakings Undertaken Pursuant to the Dodd-Frank Act (June 13, 2011).
93
   A Review Of Cost-Benefit Analyses Performed by the Commodity Futures Trading Commission in
Connection With Rulemakings Undertaken Pursuant to the Dodd-Frank Act at 24-25.
94
   A Review Of Cost-Benefit Analyses Performed by the Commodity Futures Trading Commission in
Connection With Rulemakings Undertaken Pursuant to the Dodd-Frank Act at. 24-25.
95
   A Review Of Cost-Benefit Analyses Performed by the Commodity Futures Trading Commission in
Connection With Rulemakings Undertaken Pursuant to the Dodd-Frank Act at 25.
96
   76 Fed. Reg. 824, 879.
Follow-Up Review of Cost-Benefit Analyses                                         January 27, 2012
Report No. 499
                                             Page 38
hiring staff to handle the registration of numerous municipal advisors. It is likely
that the SEC could quantify these costs based on costs it has incurred for
registration of other types of entities. 97 Challenging registrations and performing
inspections would also require SEC staff time. The effect on enforcement costs
is uncertain. It is possible that decreases in SEC staff devoted to investigating
securities law violations by municipal advisors would be appropriate if municipal
advisor registration reduces the costs of investigating cases. On the other hand,
increases in staff in this area might be required if the SEC uses the municipal
advisor registration process to obtain information that would allow it to bring more
cases or larger, more complex cases against municipal advisors.

Reporting and Dissemination of Security-Based Swap
Information (Proposed)

The release for proposed Regulation SBSR cites “Improved Commission
Oversight” as an overarching benefit of the regulation. 98 According to the
proposing release, reporting of security-based swap transactions should “provide
the Commission and other regulators a better understanding of the current risks
in the [security-based swap] market” and would, for example, help SEC staff
analyze the security-based swap market as whole “in a manner that is not
possible currently.” 99

The rules contained in proposed Regulation SBSR require that detailed data on
swap contracts be reported to SDRs. Some of these data are to be made public.
Confidential data components are to be made available to the SEC but not
reported publicly. Using the confidential and public swap data to improve
Commission oversight requires that the Commission incur costs to analyze the
data, including new computer hardware and software systems that protect the
confidentiality of the data while simultaneously making the data available for
analysis. In addition, the SEC requires a staff of economists, statisticians, and
information technology professionals to make such a system work to achieve the
benefits of improved oversight over the security-based swap market. According
to Professor Kyle, although the proposing release did not address such costs, it
should be possible to estimate them in a reasonable manner and to spell out the
nature of some of the benefits expected to be realized from improved oversight.
Such benefits might include identification of fraud or potential systemic risks or
improved ability to analyze market events, such as the “flash crash,” after they
have occurred.



97
   To the extent that the SEC takes on an oversight role normally provided by state governments, these
expenditures can be viewed as transfers of resources from the federal government to the states, not costs.
However, to the extent that these expenditures are incremental to expenditures by state and local
governments, they are costs to the SEC for the purpose of cost-benefit analysis.
98
   75 Fed. Reg. 75208, 75262.
99
   75 Fed. Reg. 75208, 75262.
Follow-Up Review of Cost-Benefit Analyses                                               January 27, 2012
Report No. 499
                                                Page 39
       Recommendation 6

       Securities and Exchange Commission rulemaking teams should consider
       including internal costs and benefits in the cost-benefit analyses of
       rulemakings.

       Management Comments. CF, IM, RiskFin, TM, and OGC generally
       concur with this recommendation. See appendix VI for management’s full
       comments.

       OIG Analysis. CF, IM, RiskFin, TM, and OGC generally concur with this
       recommendation. See appendix VII for our full response to management’s
       comments.




Follow-Up Review of Cost-Benefit Analyses                      January 27, 2012
Report No. 499
                                            Page 40
                                                                       Appendix I


                                 Abbreviations

           APA                       Administrative Procedure Act of 1946
           CF                        Division of Corporation Finance
           CFTC                      Commodity Futures Trading Commission
           Dodd-Frank Act            Dodd-Frank Wall Street Reform and
                                     Consumer Protection Act
           ECCF                      efficiency, competition, and capital
                                     formation
           EO                        Executive Order
           Exchange Act              Securities Exchange Act of 1934
           Federal Reserve           Board of Governors of the Federal Reserve
                                     System
           IM                        Division of Investment Management
           NSMIA                     National Securities Markets Improvement
                                     Act of 1996
           OGC                       Office of the General Counsel
           OIG                       Office of Inspector General
           OMB                       Office of Management and Budget
           PRA                       Paperwork Reduction Act
           RiskFin                   Division of Risk, Strategy, and Financial
                                     Innovation
           SDR                       swap data repository
           SEC or Commission         U.S. Securities and Exchange Commission
           Securities Act            Securities Act of 1933
           Senate Banking            Senate Committee on Banking, Housing,
           Committee                 and Urban Affairs
           TM                        Division of Trading and Markets




Follow-Up Review of Cost-Benefit Analyses                           January 27, 2012
Report No. 499
                                            Page 41
                                                                     Appendix II


                       Scope and Methodology

Scope. The scope of our review included examining the SEC’s methodology for
conducting cost-benefit analyses for Dodd-Frank Act rulemaking initiatives for the
period from July 2010 through April 2011 and a sample of cost-benefit analyses
prepared for rules being promulgated under the Dodd-Frank Act from July 2010
through April 2011.

As of the completion of our fieldwork, one of the five rulemaking initiatives
included in our review had only reached the stage of the proposing release. For
that rulemaking, we examined the cost-benefit analysis and comments received
from external parties presented in the proposing release.

Our review also included an evaluation of the formal cost-benefit analysis
presented in each proposing or adopting release, as well as term sheets and
outlines prepared by RiskFin, as applicable. We also looked at statutory
requirements to perform cost-benefit analyses for rulemakings and at the general
extent to which the SEC’s rulemaking procedures meet the intent of EO 12866,
EO 13563, and OMB Circular A-4.

We conducted our review at the SEC’s Washington, D.C., headquarters.

Methodology. We interviewed staff members of the various rulemaking
divisions and offices—the Division of Corporation Finance, the Division of
Trading and Markets, and the Division of Investment Management—and of
RiskFin and OGC to understand each office’s or division’s role and involvement
in the rulemaking process. We also gathered information concerning internal
policies and procedures that governed how each office or division involved in the
rulemaking process should perform cost-benefit analyses. We researched
federal guidance pertaining to the SEC that addressed the form or substance of
what is to be included in cost-benefit analyses for rulemakings. Our expert
subsequently reviewed the SEC’s cost-benefit analyses in selected Dodd-Frank
Act rulemakings to determine whether there were areas in which improvements
could be implemented to strengthen SEC cost-benefit analyses.

Prior Coverage. OIG report: Report of Review of Economic Analyses
Performed by the Securities and Exchange Commission in Connection With
Dodd-Frank Act Rulemakings, June 13, 2011.

Use of Specialist. We retained an expert, Albert S. Kyle, to assist with our
review of SEC cost-benefit analyses in Dodd-Frank Act rulemakings. Professor
Kyle is the Charles E. Smith Chair Professor of Finance at the University of
Maryland’s Robert H. Smith School of Business. He is an expert on many
aspects of capital markets and has conducted significant research on such topics

Follow-Up Review of Cost-Benefit Analyses                          January 27, 2012
Report No. 499
                                            Page 42
                                                                    Appendix II


as informed speculative trading, market manipulation, price volatility, and the
information content of market prices, market liquidity, and contagion. He has
also worked as a consultant on finance topics for several government agencies in
addition to the Commission, including the Department of Justice, the Internal
Revenue Service, the Federal Reserve, and CFTC.




Follow-Up Review of Cost-Benefit Analyses                        January 27, 2012
Report No. 499
                                            Page 43
                                                                      Appendix III


                                       Criteria
Administrative Procedure Act of 1946, 5 U.S.C. § 501 et seq. Provides
minimal procedural standards that federal administrative agencies must follow.
With respect to rulemaking, the APA requires agencies to give the public
advance notice of the contents of a proposed rule and to offer members of the
public an opportunity to express their views on the proposed rule. The APA also
provides that courts may set aside any rule found to be “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with the law.”

Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law
No.111-203, July 21, 2010. Reformed the financial regulatory system, including
how financial regulatory agencies such as the SEC operate, and mandated that
the SEC undertake a significant number of studies and rulemakings, including
regulatory initiatives addressing derivatives; asset securitization; credit rating
agencies; hedge funds, private equity funds, and venture capital funds; municipal
securities; clearing agencies; and corporate governance and executive
compensation.

National Securities Markets Improvement Act of 1996. Revised various
provisions of the federal securities laws and specifically amended the Securities
Act, the Exchange Act, and the Investment Company Act of 1940 to provide that
when the Commission is engaged in rulemaking and is required to determine
whether an action is necessary or appropriate in the public interest, the
Commission will consider, in addition to protection of investors, whether the
action will promote efficiency, competition, and capital formation.

Gramm-Leach-Bliley Act of 1999. Removed barriers in the market among
banking, securities, and insurance companies and specifically amended the
Investment Advisers Act of 1940 to provide that when the Commission is
engaged in rulemaking and is required to determine whether an action is
necessary or appropriate in the public interest, the Commission will consider, in
addition to protection of investors, whether the action will promote efficiency,
competition, and capital formation.

Section 23(a)(2) of the Securities Exchange Act of 1934, 15 U.S.C. §
78w(a)(2). Required the SEC to consider the effect on competition of any rule
promulgated under the act.

Paperwork Reduction Act of 1980, 44 U.S.C. § 3501 et seq. Gave authority
over the collection of certain information to OMB and mandated that federal
agencies obtain an OMB control number before promulgating a form that will
impose an information collection burden on the general public. Also required
agencies to solicit and review public comments on the information collection


Follow-Up Review of Cost-Benefit Analyses                           January 27, 2012
Report No. 499
                                            Page 44
                                                                       Appendix III


requirements of proposed rules, to evaluate the need for information collection,
and provide an estimate of the information collection burden.

Regulatory Flexibility Act of 1980, 5 U.S.C. § 601 et seq. Required agencies
to consider the needs of small entities in evaluating proposed and final rules for
all rules subject to notice and comment under the APA and to describe the
impact of proposed and final rules on small entities, unless the agency head
certifies that the rule will not have a significant economic impact on a substantial
number of small entities.

Executive Order 12866, Regulatory Planning and Review, 55 Fed. Reg.
51735, Sept. 30, 1993. Required executive branch agencies to provide OMB
with an assessment of the potential costs and benefits of any significant
regulatory action.

Executive Order 13563, Improving Regulation and Regulatory Review, 76
Fed. Reg. 3821, Jan. 18, 2011. Reaffirmed the principles of EO 12866,
including the principle that executive agencies must propose or adopt a
regulation only after determining that its benefits justify its costs.

OMB Circular A-4, Regulatory Analysis, Sept. 17, 2003. Provides OMB’s
guidance to federal agencies on developing cost-benefit analyses required under
EO 12866 and related authorities.

Office of the General Counsel, SEC, Compliance Handbook, revised Oct. 1,
1999. Provides guidance applicable to SEC rulemaking and includes guidance
specific to developing cost-benefit analyses.

Office of the General Counsel, SEC, Memorandum from David Becker:
Thoughts About Best Practices in Drafting Economic Analysis Sections of
Releases for Dodd-Frank Related Rulemakings, Sept. 27, 2010. Advised that
SEC Dodd-Frank Act rulemaking teams, in drafting the economic analysis
sections of rule releases, generally include only discretionary, nonmandatory
components of rulemakings in cost-benefit analyses.




Follow-Up Review of Cost-Benefit Analyses                             January 27, 2012
Report No. 499
                                            Page 45
                                                                                               Appendix IV


                           List of Recommendations

Recommendation 1:

Securities and Exchange Commission rulewriting divisions and the Division of
Risk, Strategy, and Financial Innovation (RiskFin) should consider ways for
economists to provide additional input into cost-benefit analyses of Securities
and Exchange Commission rulemakings to assist in including both quantitative
and qualitative information to the extent possible. 100

Recommendation 2:

The Office of the General Counsel, in consultation with the Division of Risk,
Strategy, and Financial Innovation, should reconsider its guidance that the
Securities and Exchange Commission (SEC) should perform economic analyses
for rulemaking activities to the extent that the SEC exercises discretion and
should consider whether a pre-statute baseline should be used whenever
possible.

Recommendation 3:

Securities and Exchange Commission (SEC) rulemaking teams should generally
use a single, consistent baseline in the cost-benefit analyses of their rulemakings
related to a particular topic. The baseline being used should be specified at the
beginning of the cost-benefit analysis section. If multiple baselines are
appropriate, such as for evaluating alternative approaches or explaining the
SEC’s use of discretion, they should also be explained and justified.

Recommendation 4:

Securities and Exchange Commission rulewriting divisions should consider
discontinuing the practice of drafting separate cost-benefit analysis and
efficiency, competition, and capital formation sections and instead provide a
more integrated discussion of these issues in rule releases.




100
   If the rulewriting divisions and RiskFin determine that it is not possible to quantify costs and benefits, they
should explain why and present any relevant quantitative information, along with a discussion of its strengths
and weaknesses. OMB Circular A-4 at 27.
Follow-Up Review of Cost-Benefit Analyses                                                    January 27, 2012
Report No. 499
                                                   Page 46
                                                                      Appendix IV


Recommendation 5:

The Commission should consider directing rulemaking teams to (a) explicitly
discuss market failure as a justification for regulatory action in the cost-benefit
analysis of each rule that is based in whole or in part on perceived market failure
or (b) in the absence of market failure, demonstrate a compelling social purpose
that justifies regulatory action.

Recommendation 6:

Securities and Exchange Commission rulemaking teams should consider
including internal costs and benefits in the cost-benefit analyses of rulemakings.




Follow-Up Review of Cost-Benefit Analyses                           January 27, 2012
Report No. 499
                                            Page 47
                                                        Appendix V


                        Congressional Request




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 48
                                                        Appendix V




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 49
                                                        Appendix V




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 50
                                                        Appendix V




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 51
                                                        Appendix V




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 52
                                                       Appendix VI


                       Management Comments




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 53
                                                       Appendix VI




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 54
                                                       Appendix VI




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 55
                                                       Appendix VI




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 56
                                                       Appendix VI




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 57
                                                       Appendix VI




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 58
                                                       Appendix VI




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 59
                                                       Appendix VI




Follow-Up Review of Cost-Benefit Analyses             January 27, 2012
Report No. 499
                                            Page 60
                                                                        Appendix VII


           OIG Response to Management Comments

The Office of Inspector General (OIG) is pleased that the Divisions of
Corporation Finance (CF), Investment Management (IM), Risk, Strategy, and
Financial Innovation (RiskFin), and Trading and Markets (TM) and the Office of
the General Counsel (OGC) have concurred with five of the six recommendations
addressed to the respective divisions and office. We are also encouraged that
CF, IM, RiskFin, TM, and OGC welcome the constructive recommendations for
improvements to existing practices that are contained in the OIG’s report.

We are, however, disappointed in some of the assertions contained in the
management response to the OIG’s report, as well as with the statement in the
response that management does not concur with recommendation 5, which
simply asks the Commission to “consider” directing the agency’s rulemaking
teams to provide a fuller discussion in the cost-benefit analyses regarding market
failure or, alternatively, a compelling social purpose as a justification for
regulatory action. Discussed below are the particular areas of disagreement as
reflected in the management response, in order of their appearance.

The management response asserts that the OIG report “misconstrues and
unduly emphasizes the impact” of the September 2010 memorandum prepared
by the SEC’s then-General Counsel, David Becker (“Becker memorandum”),
which the response asserts is not a “bright-line policy.” Yet the focus of the
analysis in the OIG’s report is not the language of the Becker memorandum
itself, but rather the approach utilized by the SEC rulemaking teams in the cost-
benefit analyses we reviewed, which dovetailed with the approach outlined in the
Becker memorandum. For example, the introduction to the cost-benefit analysis
section of the adopting release for the Shareholder Approval of Executive
Compensation and Golden Parachute Compensation rule stated the following:
“The discussion below focuses on the costs and benefits of the amendments
made by the Commission to implement the Act within its permitted discretion,
rather than the costs and benefits of the Act itself.” 101 Similarly, the introduction
to the cost-benefit analysis section of the adopting release for the Issuer Review
of Asset-Backed Securities rule stated that the discussion in the cost-benefit
analysis “focuses on the costs and benefits of the amendments made by the
Commission to implement the Act within the Commission’s permitted discretion
and related amendments not required by the Act, rather than the costs and
benefits of the [Dodd-Frank] Act itself.”102 Thus, our analysis describes and
comments on the impact of the rulemaking teams following the Becker
memorandum’s overarching guidance—that is, in instances where the



101
      76 Fed. Reg. 6010, 6037.
102
      76 Fed. Reg. 4231, 4241.
Follow-Up Review of Cost-Benefit Analyses                              January 27, 2012
Report No. 499
                                            Page 61
                                                                                      Appendix VII


Commission is making no policy choices, “there are no choices to analyze or
explain.” 103

The management response also states that Professor Kyle’s opinion with respect
to the proper scope of cost-benefit analyses fails to appreciate the pertinent
practical limitations and the distinct roles of Congress and administrative
agencies. The response also states that SEC staff use cost-benefit analyses to
help the Commission make appropriate and informed decisions on the matters
the Commission has the authority to decide, and informing Congress about the
wisdom of decisions it has already made is not and should not be the core
principle driving SEC cost-benefit analyses. While we appreciate management’s
perspective and acknowledge that the Commission is subject to resource
limitations with respect to performing cost-benefit analyses for Dodd-Frank Act
rulemakings, we disagree that the Commission’s primary reason for engaging in
economic analysis of rulemaking alternatives should be “to inform its own
exercise of discretion in decision making.” We concur with Professor Kyle’s
opinion that “in addition to satisfying statutory requirements and nonstatutory
best practices, a cost-benefit analysis is intended to inform the public and other
parts of government, including Congress and the regulating entity itself, of the
effects of alternative regulatory actions.” This opinion is consistent with OMB
Circular A-4, which states that “[a] good regulatory analysis is designed to inform
the public and other parts of government (as well as the agency conducting the
analysis) of the effects of alternative actions.” 104

The management response further labels as a “non sequitur” the report’s
statement that lack of quantitative discussion in the cost-benefit analyses of
Dodd-Frank Act rulemakings “might have resulted” from the fact that the
analyses addressed only discretionary components. While we appreciate the
challenges involved in arriving at quantitative estimates of costs and benefits of
SEC rulemakings, we continue to believe that the failure to address the
mandatory components in cost-benefit analyses may hinder efforts to rationally
quantify costs and benefits. As the report explains, “it is often difficult to describe
incremental costs and benefits of going from the statutory mandate to a
reasonable alternative without also describing how the pre-statute state of the
world differs from the statutory mandate. One way to calculate the incremental
costs and benefits of a reasonable alternative and a statutory mandate is to
describe the costs and benefits of the reasonable alternative relative to the pre-
statute baseline, then subtract out the incremental costs and benefits of the
statutory mandate relative to the pre-statute baseline.”

The management response states that while OGC and RiskFin generally concur
with the OIG report’s recommendation 2 regarding using a pre-statute baseline

103
    Memorandum from David M. Becker, General Counsel, Thoughts About Best Practices in Drafting
Economic Analysis Sections of Releases for Dodd-Frank Related Rulemakings (Privileged and Confidential)
(Sept. 27, 2010).
104
    OMB Circular A-4 at 2.
Follow-Up Review of Cost-Benefit Analyses                                            January 27, 2012
Report No. 499
                                              Page 62
                                                                                           Appendix VII


for economic analyses, management does not agree that the SEC “should
always devote its limited resources” to performing a de novo analysis of the costs
and benefits of legislative judgments. The response also states that
management does not agree with “the corollary that a pre-statute baseline is
always appropriate . . . .” However, recommendation 2 states that OGC, in
consultation with RiskFin, “should consider whether a pre-statute baseline should
be used whenever possible.” It does not recommend that a pre-statute baseline
be used in every circumstance. Moreover, as Professor Kyle noted, by
performing cost-benefit analyses only for discretionary rulemaking activities, the
SEC may not be providing a full picture of whether an action is likely to justify its
costs and which regulatory alternatives would be the most cost-effective.
Further, the recommendation is consistent with the guidance in OMB Circular A-
4, which states that the baseline agencies use in defining costs and benefits will
“normally be a ‘no action’ baseline”105—that is, a pre-statute baseline.

The management response is also critical of a hypothetical example used by
Professor Kyle in the report’s discussion of pre-statute baselines, referring to it as
“oversimplified” and based upon “flawed” assumptions. As the report makes
clear, however, the purpose of Professor Kyle’s example was to illustrate why the
use of a pre-statute baseline is potentially important; the example was not
intended to represent a typical quantification of costs and benefits.

The management response further states that the Commission staff does not
concur with recommendation 5 primarily because it is uncertain about the
recommendation’s scope and meaning. The response indicates that
discretionary rulemakings may often not be premised on market failure, and that
OMB Circular A-4 does not recommend that an agency provide market failure
justifications for statutorily mandated rulemakings. However, the OIG
recommendation does not suggest that market failure is the sole acceptable
justification for rulemaking. Instead, it provides that in instances when market
failure is the justification for a rulemaking, the Commission should consider
having the rulemaking teams explicitly discuss market failure. As the report
states, when market failure is not the justification for proposed regulation, the
cost-benefit analysis should refer to the compelling social purpose that justifies
the regulatory action, such as, according to OMB Circular A-4, “improving
governmental processes or promoting intangible values such as distributional
fairness or privacy.” 106

The management response appears to takes the position that where rulemaking
is based upon a statutory requirement, the Commission should never articulate
market failure as a basis for the rule and that to do so would “disregard the law.”
 However, management provides no support for the concept that an agency is

105
   OMB Circular A-4 at 2.
106
   OMB Circular A-4 at 4. We also disagree with management’s characterization of the discussion of the
problem of misaligned incentives in the Credit Risk Retention release as a discussion of a market failure.
According to Professor Kyle, misaligned incentives would not necessarily constitute a market failure.
Follow-Up Review of Cost-Benefit Analyses                                                January 27, 2012
Report No. 499
                                                 Page 63
                                                                    Appendix VII


prohibited from discussing its views on market failure as a justification for
regulatory action whenever Congress has passed a law to address the problem
at issue. OMB Circular A-4 states, based on Executive Order 12866, that the
agency should try to explain whether the action is intended to address a
significant market failure or to meet some other compelling public need. 107 OMB
Circular A-4 does not state that an agency should do this only in situations where
there is no statutory directive requiring the agency to promulgate regulations.

The OIG’s report is not suggesting that the SEC staff discuss market failure in
situations where market failure has no nexus to the proposed regulatory action.
Nor is the OIG report advocating an approach that it is in any way contrary to
OMB Circular A-4. Rather, the OIG’s recommendation is designed to promote
adherence to OMB Circular A-4’s guidance.

Therefore, we hope that SEC management reconsiders its decision not to agree
to even “consider” whether to include an explicit discussion of market failure in
the SEC’s cost-benefit analyses in rulemakings based on perceived market
failure, including those mandated by the Dodd-Frank Act. We believe that
implementation of our recommendation would further inform the Commission, the
public, and Congress about the bases for the pertinent rules.




107
      OMB Circular A-4 at 4.
Follow-Up Review of Cost-Benefit Analyses                          January 27, 2012
Report No. 499
                                            Page 64
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:    oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Telephone: 877-442-0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
